Quarterly Progress and
Oversight Report on the Civilian
Assistance Program in Pakistan
As of September 30, 2012
Foreword
This is the eleventh quarterly progress and oversight report on the U.S. Government’s civilian assistance
program in Pakistan. The U.S. Embassy in Pakistan requested quarterly reporting to inform stakeholders
about progress achieved to date, problems encountered during program implementation, and actions
taken to address them.

This report covers the period from July 1 to September 30, 2012. The U.S. Embassy reported that, as
of September 30, 2012, $3.505 billion in civilian assistance funds for fiscal years 2010, 2011, and 2012
had been obligated and that $3.078 billion had been spent since fiscal year 2010.

Program status information in this report is based on information provided by the departments and
agencies working in Pakistan—the Departments of Agriculture, Commerce, Defense, and State and the
U.S. Agency for International Development, U.S. Institute of Peace, and U.S. Trade and Development
Agency. In most instances, this information has not been independently verified or audited. The
information on program oversight comes from audits, reviews, and investigations performed by the
Offices of Inspector General of the U.S. Agency for International Development and the Departments of
Agriculture, Defense, Homeland Security, Justice, and State, as well as by the Government
Accountability Office.



                  /s/                   .
Michael G. Carroll
Deputy Inspector General
U.S. Agency for International Development


                /s/                       .
The Honorable Harold W. Geisel
Deputy Inspector General
Department of State



                  /s/                     .
Lynne M. Halbrooks
Principal Deputy Inspector General
Department of Defense
Contents
Executive Summary ......................................................................................................................................................................1
Background .....................................................................................................................................................................................3
Program Status ..............................................................................................................................................................................7
    Energy........................................................................................................................................................................................ 10
    Economic Growth ................................................................................................................................................................ 13
    Stabilization ............................................................................................................................................................................. 22
    Education.................................................................................................................................................................................. 31
    Health ........................................................................................................................................................................................ 36
    Crosscutting Priorities: Good Governance, Gender Equity, and Greater Transparency........................... 39
    Humanitarian Assistance .................................................................................................................................................... 45
    Assistance to Pakistani Institutions................................................................................................................................. 55
Staffing............................................................................................................................................................................................ 59
Risks and Mitigation Strategies.............................................................................................................................................. 61
Oversight Status......................................................................................................................................................................... 66
    Department of Defense Office of Inspector General.............................................................................................. 66
    Department of State Office of Inspector General .................................................................................................... 67
    USAID Office of Inspector General ............................................................................................................................... 69
    U.S. Department of Agriculture Office of Inspector General .............................................................................. 77
    Government Accountability Office................................................................................................................................. 78
    Completed Oversight Reports as of September 30, 2012..................................................................................... 80
Appendix—Abbreviations ...................................................................................................................................................... 87
Executive Summary
The Enhanced Partnership with Pakistan Act of 2009, Public Law 111 -73 (October 15, 2009), authorizes
democratic, economic, and development assistance to Pakistan of up to $1.5 billion per year from fiscal
year (FY) 2010 to FY 2014, for a total of $7.5 billion. The U.S. Department of State’s Pakistan Assistance
Strategy Report, issued in December 2009, guides the U.S. Government’s civilian assistance program in
Pakistan, which is designed to build trust and a long-term partnership between the two countries by
strengthening mutual security, stability, and prosperity.

The U.S. Embassy reported that, as of September 30, 2012, $3.505 billion in civilian assistance funds for
FYs 2010, 2011, and 2012 had been obligated and that $3.078 billion had been spent since FY 2010.
These funds are intended to address the country’s most critical infrastructure needs, help the Pakistani
Government meet its citizens’ basic needs and provide improved economic opportunities, and
strengthen Pakistan’s capacity to pursue economic and political reforms that reinforce stability.

Challenges to implementation of the civilian assistance program in Pakistan remain in every sector.
Limited local technical capacity has affected the implementation of many assistance efforts. Many
programs operate under difficult security conditions, and implementing partners and program
participants have been subject to criticism and harassment for their association with U.S. Government
efforts. Program staffing and events have been hampered by the denial of visas and visa extensions to
U.S. Government employees, and project personnel have been kidnapped and killed in areas where
security is lacking. Despite these challenges, implementation of assistance programs continued.

The U.S. Agency for International Development (USAID) continued to implement programs through
Pakistani institutions, including national and provincial governments and nongovernmental organizations
(NGOs). During FYs 2010 and 2011, USAID awarded more than $1.7 billion to governmental and
nongovernmental Pakistani institutions. From October 1, 2011, through September 30, 2012, USAID
made awards to these groups totaling $492.1 million. To overcome risks to its programs and improve
monitoring and oversight of them, USAID continued to conduct preaward assessments of local
implementing partners. USAID also continued to fund broad-based monitoring and evaluation activities
under an institutional contract to enhance the mission’s oversight.

To protect USAID funds against waste and theft, USAID’s Office of Inspector General (OIG) pursued
hotline complaints and conducted investigations and audits. OIG investigators collaborated with the
World Food Programme to investigate the theft and diversion of supplies from a food-for-education
program and worked with the Sindh Department of Education to terminate employees involved in this
activity. USAID OIG also worked with the Department of State (DOS) OIG to respond to a criminal
scheme in the U.S. Embassy’s Housing Office. Two locally engaged Embassy employees participating in
the bribery scheme were terminated in July and the matter has been referred to Pakistan’s National
Accountability Bureau for local prosecution.


                                                                                                        1
During the quarter, USAID OIG issued three performance audits, six financial audits, and an agreed-
upon forensic procedures report relating to assistance programs in Pakistan. In total, these reports
made 14 recommendations for program improvement and questioned more than $12.4 million in costs.
OIG’s August 2012 performance audit of USAID’s reconstruction program in earthquake-affected areas
found that reconstruction activities had proceeded on time and within budget and that most facilities
were being used by the Government of Pakistan for their intended purposes. Also in August, OIG
released its audit of USAID’s Gomal Zam Multipurpose Dam Project. The audit noted project
achievements in helping meet water and energy needs in the surrounding area and its role in helping
mitigate flood damage in 2011, but also observed that work on the dam was 3 months behind sched ule.
More recently, OIG issued its performance audit of the Assessment and Strengthening Program. The
audit concluded that, despite the program’s substantial efforts to build Pakistan governmental entities’
institutional capacity, planning was inadequate. In addition, more than 1½ years after the program’s
launch, implementers had not finished any of the 46 activities planned for completion.

DOS OIG completed two Pakistan-related reports during the quarter. In September, DOS OIG
released its evaluation of the Embassy’s local guard force contract. Among other matters, the OIG team
reported that the local guard force contractor did not have a contingency plan to replace guards on
strike. As a result, it had to use unapproved guards to cover guard posts when a strike took place in
June 2011. Also in September, DOS OIG issued an inspection report on support for DOS employees in
Afghanistan, Iraq, and Pakistan. OIG inspectors concluded that DOS had not provided clear guidance to
these missions on support for families and noted that families were not treated uniformly as a result.

Meanwhile, the Department of Defense (DOD) OIG completed its audit of a contract to overhaul Mi-17
aircraft including eight Pakistani aircraft. The Government of Pakistan aircraft were overhauled and
returned to Pakistan, but delays in the process meant that the aircraft were not available for rescue and
recovery operations during the 2010 floods. OIG auditors partially attributed the delays to a
subcontractor and recommended that the U.S. Army consider suspending or debarring the firm from
future work.

The U.S. Department of Agriculture (USDA) OIG issued a report this quarter on USAID funds
transferred to USDA to build Pakistan’s capacity for marketing and productivity in the agricultur e
sector. OIG auditors confirmed that $10.9 million spent on the USDA programs was used properly, but
could not fully assess the adequacy of monitoring and oversight controls because USDA was still in the
process of establishing them at the time of the OIG review.

Finally, in July 2012, the Government Accountability Office (GAO) provided congressional testimony on
U.S. Government efforts to counter the use of improvised explosive devices (IEDs) in Afghanistan and
Pakistan. GAO’s testimony indicated that the U.S. Government’s counter-IED efforts faced challenges
such as delays in obtaining visas and in the delivery of equipment. GAO noted that the U.S. mission
needed to enhance its counter-IED performance measures to cover the full range of U.S.-assisted
efforts.



                                                                                                       2
Background
The United States is Pakistan’s largest reported source of bilateral development assistance and the
largest contributor to Pakistan’s leading providers of multilateral development assistance. U.S. civilian
assistance to Pakistan is important to maintaining the long-term strategic partnership that the U.S.
Government sought to forge with the Government of Pakistan and its citizens through the Enhanced
Partnership with Pakistan Act of 2009, Public Law 111-73 (October 15, 2009). The act authorized
$1.5 billion per year for FYs 2010–2014, for a total of $7.5 billion, to support democratic, economic, and
development assistance.

In 2009, DOS developed a strategy for providing civilian assistance to Pakistan. 1 The strategy’s
objectives include addressing the country’s most critical infrastructure needs; helping the Pakistani
Government meet basic needs and provide improved economic opportunities, especially in areas most
vulnerable to extremism; and strengthening Pakistan’s capacity to pursue economic and political reforms
that reinforce stability. The strategy initially focused on high-impact, high-visibility infrastructure
programs, the provision of humanitarian and social services, and improved governance and security. In
2011, USAID and DOS refined the strategy to focus assistance on energy, economic growth,
stabilization, education, and health. Programs in these sectors incorporate crosscutting themes of good
governance, gender equity, and greater transparency.2 In addition to civilian assistance efforts in these
sectors, the U.S. Government seeks to provide fast and effective humanitarian relief when called upon
for assistance.

Political and security conditions in Pakistan continued to complicate project design, implementation, and
monitoring. U.S. Government personnel and implementing partners reported that delays in visa
approvals and harassment by Pakistani officials have hindered the progress of assistance programs. U.S.
Government personnel are subject to security-related travel restrictions, and project activities are often
delayed or cancelled because of security concerns. In August, eight local staff members working on a
USAID project were kidnapped and one was later confirmed dead. In September, when protests over
an anti-Islamic video produced in the United States but denounced by the U.S. Government turned
violent, U.S. official travel was further constrained and U.S.-supported assistance efforts hampered.
According to a database of incidents of violence against aid workers, 25 aid workers were killed in
Pakistan, 25 wounded, and 31 abducted from October 2009 to September 2012.3

Since the ratification of the Enhanced Partnership with Pakistan Act, the U.S. Congress has appropriated

1
  Pakistan Assistance Strategy Report, December 14, 2009.
2
  Office of the Special Representative for Afghanistan and Pakistan, Status Report: Afghanistan and Pakistan Civilian
Engagement, November 2011.
3
   Humanitarian Outcomes, Aid Worker Security Database, 2009–12, https://aidworkersecurity.org/, Retrieved
October 10, 2012.


                                                                                                                   3
$3.511 billion in civilian assistance funding for Pakistan through four foreign operations accounts. As of
September 30, 2012, the U.S. Embassy in Islamabad reported that U.S. Government agencies had
obligated $2.587 billion of this total (Table 1). Other assistance funds for Pakistan, such as International
Disaster Assistance, Food for Peace, Migration and Refugee Assistance (MRA), and Emergency Refugee
and Migration Assistance (ERMA), are not designated for use in specific countries during the
appropriations process. These other funds are not shown in Table 1.

                Table 1. Civilian Assistance to Pakistan by Fund and Agency for
                  Select Foreign Assistance Funds as of September 30, 2012
                                      ($ Million; Unaudited)

                                       Appropriated*                                              Obligated
         Fund                                                                 Agency
                          FY 2010 FY 2011 FY 2012           Total                               FYs 2010–2012

 Economic Support                                                     Department of
                           1,264.1     873.9      844.7     2,982.7                                       1.8
 Fund (ESF)                                                           Commerce (DOC)
                                                                      DOD                               10.0
                                                                      DOS                               72.7
                                                                      USAID                           2,071.2
                                                                      USDA                              28.9
                                                                      U.S. Institute of Peace
                                                                                                          3.0
                                                                      (USIP)
                                                                      U.S. Trade and
                                                                      Development Agency                  5.1
                                                                      (USTDA)

                                                                          Subtotal                   2,192.6
 Global Health and
 Child Survival               29.7      28.4         –         58.1   USAID                             54.7
 (GHCS)
 International
 Narcotics and Law
                             170.0     114.3      116.0       400.3   DOS                              284.4
 Enforcement
 (INCLE)
 Nonproliferation,
 Anti-terrorism,
 Demining, and                23.9      24.8       20.8        69.5   DOS                               55.2
 Related Programs
 (NADR)

 Total                     1,515.6   1,086.4   1,001.5      3,510.6                                  2,586.9

Source: DOS Office of Foreign Assistance Resources and U.S. Embassy Islamabad.



                                                                                                              4
* Reported amounts are limited to funds that were designated for use in Pakistan during the appropriations
  process. Foreign operations appropriations for FY 2010 were provided in the Consolidated Appropriations
  Act, 2011, Public Law 111-117 (December 16, 2009) and the Supplemental Appropriations Act, 2010, Public
  Law 111-212 (July 29, 2010). Foreign operations appropriations for FY 2011 were provided in the Department
  of Defense and Full-Year Continuing Appropriations Act, 2011, Public Law 112 -10 (April 15, 2011), and foreign
  operations appropriations for FY 2012 were provided in the Consolidated Appropriations Act, 2012, Public
  Law 112-74 (December 23, 2011). The latter act also provided the basis for rescissions that were applied to
  appropriations for Pakistan.


GHCS, INCLE, and NADR funds are each obligated for assistance activities in a single sector. GHCS
funds support health sector activities, while INCLE and NADR funds support stabilization efforts. By
contrast, ESF money is used in all of the components of the U.S. Government’s civilian assistance
program in Pakistan. All energy, economic growth, and education activities are funded through ESF, and
ESF provides most of the funding for health programs and those that support good governance, gender
equity, and greater transparency. ESF also accounts for about a quarter of U.S. humanitarian assistance
and stabilization sector obligations.

The President’s budget request for FY 2013 included $1.071 billion in ESF, INCLE, and NADR funds for
civilian assistance to Pakistan. While Congress has not settled on final funding levels for FY 2013, it
passed a resolution in September to continue funding federal programs and activities through March 27,
2013. This resolution did not set annual funding levels for assistance to Pakistan.




                                                                                                              5
                                             Map of Pakistan




Source: USAID Office of Transition Initiatives, Geographic Information Unit.




                                                                               6
Program Status
The U.S. departments and agencies delivering development assistance in Pakistan are implementing
programs in energy, economic growth, stabilization, education, and health; the crosscutting areas of
governance, gender equity, and greater transparency; and humanitarian assistance. Table 2 and the
sections that follow it provide information on the status of the programs in these areas.

The U.S. Embassy reported that as of September 30, 2012, $3.505 billion in civilian assistance funds from
FYs 2010, 2011, and 2012 had been obligated and that $3.078 billion in funding had been spent to
support the civilian assistance strategy since FY 2010 (Table 2).

          Table 2. Civilian Assistance to Pakistan by Sector, Agency, and Fund as of
                                      September 30, 2012
                                     ($ Million; Unaudited)

                                                          Obligated*                         Disbursed
     Managing
                              Fund                                                                            †
  Agency or Office                                                                         FYs 2010–2012
                                         FY 2010      FY 2011     FY 2012       Total

 Energy

 USAID                  ESF                    98.3       237.5          –         335.8          156.5
 Subtotals                                     98.3       237.5          –         335.8          156.5

 Economic Growth

 DOC                    ESF                     0.8         1.0          –          1.8              3.1
 USAID                  ESF                   284.6       264.1          –        548.8           360.8
 USDA                   ESF                    18.9        10.0          –         28.9             17.0
 USTDA                  ESF                     2.1         3.0          –          5.1              3.6
 Subtotals                                    306.4       278.1          –        584.5           384.5

 Stabilization

 DOD                    ESF                    10.0          –           –         10.0              1.0
 Economic Section,
                        NADR                   15.0        10.7          –         25.7               –
 U.S. Embassy




                                                                                                          7
                                                      Obligated*                        Disbursed
    Managing
                               Fund                                                                †
 Agency or Office                                                                     FYs 2010–2012
                                        FY 2010    FY 2011    FY 2012     Total

Bureau of                ESF                  –          –          –             –           14.5
International
Narcotics and Law
Enforcement Affairs      INCLE             166.0      114.4         4.0     284.4            121.7
(INL), DOS
Political Section
                         NADR                1.6        1.8         0.8       4.2              2.6
(POL), U.S. Embassy
Regional Security
Office (RSO),            NADR               15.4       10.0         –        25.4             22.6
U.S. Embassy
USAID                    ESF                43.2       49.6         –        92.8            155.9
USIP                     ESF                 3.0         –          –         3.0              1.6
Subtotals                                  254.2      186.4         4.8     445.4            319.9

Education

Public Affairs Section
                         ESF                19.5       19.5        19.5      58.5             58.0
(PAS), U.S. Embassy
USAID                    ESF               206.4       82.3         –       288.7            207.6
Subtotals                                  225.9      101.8        19.5     347.2            265.6

Health

USAID                    ESF / GHCS        224.3       84.7         –       309.1            196.2

Subtotals                                  224.3       84.7         –       309.1            196.2

Crosscutting Priorities: Good Governance, Gender Equity, and Greater Transparency

                         Development
                                              –        <0.1         –        <0.1             <0.1
                         Assistance
Bureau of Democracy,     ESF                 5.0         –          –         5.0              1.2
Human Rights, and
Labor (DRL), DOS         Human Rights
                         & Democracy         2.1         –          –         2.1              1.5
                              ‡
                         Fund

                         Consular and
                         Diplomatic          6.9        9.5        25.1      41.5             14.6
PAS                      Programs
                         ESF                  –         9.2         –         9.2              9.2
USAID                    ESF                97.6      118.4         –       216.0             81.0
Subtotals                                  111.6      137.1        25.1     273.9            107.5


                                                                                                  8
                                                                  Obligated*                           Disbursed
        Managing
                                  Fund                                                                            †
     Agency or Office                                                                                FYs 2010–2012
                                                FY 2010      FY 2011      FY 2012         Total

    Humanitarian Assistance

    Bureau of Population,   MRA                       42.0         39.8            –          81.8             108.6
    Refugees, and
    Migration (PRM),        ERMA                      49.3          2.7            –          52.0              33.0
         §
    DOS
                            ESF                     334.7            –             –         334.7             688.2
                            Food for
                                                      96.8        115.1          68.1        279.9             280.1
                            Peace
    USAID
                            International
                            Disaster                359.7          60.1          41.0        460.7             537.7
                            Assistance
    Subtotals                                       882.5         217.6        109.0      1,209.2            1,647.5

    Totals                                        2,103.4       1,243.2        158.5      3,505.1            3,077.6

Source: U.S. Embassy Islamabad.

Note: Numbers do not always sum to subtotals and totals because of rounding. A dash indicates a value of zero.

* Obligations are reported by the fiscal year in which funds were appropriated.

†    Disbursement figures refer to funds disbursed in FYs 2010–2012 regardless of when they were appropriated or
     obligated. Some disbursements this period were of funds appropriated before FY 2010. As a result, these figures
     cannot be used to determine how much of the obligated funding reported in this table remains unexpended.

‡    DRL has provided additional assistance to Pakistan as part of a grant program that also funds activities in Saudi
     Arabia. Because the level of funding provided for activities in Pakistan in particular is not available, funds
     associated with the grant program are not included in this table.

§    In addition to these funds, PRM provides funding to assist Afghan refugees in the region, including those in
     Pakistan. PRM obligated $232.7 million in FY 2010–2012 funds and disbursed $189.8 million from October 1,
     2009, to September 30, 2012, for this regional effort.


U.S. civilian assistance funds are not distributed evenly across sectors. As shown in the following
graphic, the U.S. Government has concentrated the largest share of its obligations since FY 2010 on
humanitarian assistance efforts.




                                                                                                                    9
              Distribution of Civilian Assistance Obligations by Sector

                                          9%

                                                                      Energy
                                                     17%              Economic Growth
                      34%
                                                                      Stabilization
                                                                      Education
                                                                      Health
                                                                      Crosscutting Priorities
                                                    13%               Humanitarian Assistance
                          8%
                                 9%      10%



              Source: U.S. Embassy Islamabad.



Energy
Nearly half the Pakistani population lacks access to modern energy services and blackouts are a common
feature of daily life. According to the Asian Development Bank, Pakistan’s unpredictable, severe power
outages are estimated to reduce economic growth by at least 2 percent a year. Moreover, high
subsidies, low tariff collection rates, and distorted prices have discouraged private companies from
investing in energy infrastructure and building additional capacity.

Last quarter, diminished hydroelectric generation because of low water levels resulted in rolling
blackouts that often lasted 8 to 20 hours, constraining economic development and disrupting health,
education, and other services. In July and August, anger over limited electrical supplies led to riots in
several parts of the country. Heavy monsoon rains during September raised reservoir levels, which in
turn increased power generation and reduced the intensity of blackouts in the country.

The U.S. Government and other donors provide technical assistance to help the Pakistani Government
develop appropriate energy pricing, regulatory, and privatization policies and assist in implementing
Pakistan’s energy reform plan. In addition, the United States aims to increase electricity generation,
decrease transmission losses, and increase cost recovery by investing in selected energy infrastructure
and capacity-building activities.

USAID. USAID has eight energy programs under way (Table 3). To meet growing energy demands,
USAID’s programs seek to help the Pakistani Government supply hydropower through the completion
of the Gomal Zam and Satpara Dams and the rehabilitation of the Tarbela Dam. USAID is also
rehabilitating three thermal power stations. In July 2012, USAID ended its Energy Efficiency Program,


                                                                                                      10
which demonstrated potential energy savings in the agriculture sector by replacing old, inefficient tube
well pumps with more efficient equipment. Table 3 lists USAID’s active energy programs.

         Table 3. USAID Energy Programs as of September 30, 2012 (Unaudited)

       Name                     Description              Start   End       Implementing      Funding
                                                         Date    Date        Partner           ($)

                          Provides technical and
                          engineering support to                         Advanced
Energy Policy             USAID-funded                                   Engineering
                                                         10/08   1/15                         16,336,559
Project                   infrastructure projects                        Associates
                          implemented by the                             International
                          Government of Pakistan

                          Increases hydropower                           Water and Power
Gomal Zam Dam
                          capacity and builds            1/11    12/12   Development          40,000,000
Project
                          transmission lines                             Authority (WAPDA)

                                                                         Central Power
                          Repairs and maintains a
Guddu Project                                            5/10    6/13    Generation           18,068,000
                          thermal power station
                                                                         Company Limited

                          Rehabilitates a thermal                        Jamshoro Power
Jamshoro Project                                         5/10    6/13                         18,360,000
                          power station                                  Company Limited

                                                                         Northern Power
Muzaffargarh              Rehabilitates a thermal
                                                         5/10    6/13    Generation           15,193,000
Project                   power station
                                                                         Company Limited

                          Improves management
Power                     capacity, financial systems,
                                                                         International
Distribution              billings, and collections of   9/10    3/15                         29,499,409
                                                                         Resources Group
Project                   power distribution
                          companies

Satpara Dam               Increases hydropower
                                                         1/11    4/13    WAPDA                19,000,000
Project                   capacity by 17 megawatts

Tarbela Dam               Rehabilitates a
                                                         4/10    12/12   WAPDA                16,500,000
Project                   hydropower station

Source: USAID/Pakistan.


As of September 30, 2012, USAID reported that 500 megawatts of power had been added to or saved
in Pakistan’s national grid as a result of U.S. Government-supported construction and rehabilitation

                                                                                                     11
efforts. This amounts to more than 4 percent of power generation reported by the Ministry of Water
and Power at the start of October 2012.

USAID also reported the following accomplishments in its portfolio of energy programs:

   Progress continued on the six signature energy projects involving rehabilitation and construction of
   hydroelectric and thermal power plants that Secretary Clinton announced in October 2009 and
   July 2010. During the reporting period, cash reimbursements to the Government of Pakistan to
   support these activities continued. Cumulative U.S. Government reimbursements for these projects
   totaled approximately $87 million by the end of September 2012.

   Since early 2010, projects at the thermal power plants at Jamshoro and Muzaffargarh have added
   25 megawatts and 280 megawatts, respectively, of power generation capacity, and work on the
   Tarbela Dam has increased its power generation capacity by 128 megawatts. Now that this power
   generation capacity has been installed at the Tarbela Dam, project efforts are focused on completing
   the computer system to monitor and control the dam and the digital controls for the dam’s
   turbines—features that will contribute to the long-term sustainability of the power plant.

   The Guddu Thermal Power Plant worked to establish a credit line for making payments to General
   Electric for implementing their agreement to rehabilitate a portion of the power plant that will add
   an estimated 75 megawatts to Pakistan’s national grid.

   The Power Distribution Project has saved 72.3 megawatts of energy flow in the grid by introducing
   new technology and improving work practices in all nine government-owned distribution companies.
   More than 1 million Pakistanis have directly benefited from the resulting improved access to power.

   -   During the quarter, the Power Distribution Project signed agreements with vendors for the
       procurement of 46,000 automatic meter readers and electronic meters, 670 kilometers of cable,
       6,200 low-voltage current transformers, and 26,000 capacitors. Once these items are installed,
       they are expected to help reduce electricity losses in targeted subdivisions by 12 percent.
       Network losses in selected pilot subdivisions have been reduced by an average of 10 percent as
       a result of improved commercial practices (such as improved meter reading, billing, and
       collections) and infrastructure investments (such as replacing damaged or outdated meters and
       transformers, and installing aerial cable). To date, more than 15,000 meters have been assessed
       and, where necessary, reconnected, repaired, or replaced under the project, reducing electricity
       losses and improving billing accuracy.

   -   Capacity building for distribution company personnel continued this quarter with special focus
       on power system management and loss reduction. Planning and engineering departments at all
       nine distribution companies received geographic information system and advanced system
       planning software, supporting hardware, and specialized training, and units to monitor power



                                                                                                    12
        quality were established at four distribution companies with Power Distribution Project
        assistance.

    -   To date, more than 3,100 power utility employees have received training to improve operational
        performance, customer service, and financial results. Training activities this quarter took place
        in commercial operations, power system management, communications, human resource
        management, safety, operations and maintenance, gender issues, and other areas.

    -   More than 900 distribution company linemen have received quick-impact safety training from
        instructors trained by the Power Distribution Project. Once initial training has been completed,
        the distribution companies will carry on delivery of the training program using their own
        resources, thereby extending safety training to remaining line staff members. Serious injuries or
        deaths of distribution company linemen have dropped by 86 percent since the training program
        began.

USAID reported that implementing energy projects at the Guddu, Jamshoro, and Muzaffargarh thermal
power plants remains a challenge. These generating companies are having difficulty completing their
procurements, which has slowed project disbursements. In response, USAID has increased capacity
building for thermal plant personnel in procurement, financial and human resources, and administrative
management. In addition, $15.5 million in credit was extended to the Guddu power plant during the
reporting period to aid in the procurement of equipment for the facility. USAID has also worked closely
with Pakistan’s Ministry of Water and Power and the Economic Affairs Division of the Minis try of
Economic Affairs and Statistics to address project bottlenecks.


Economic Growth

Over the past 3 years, Pakistan has experienced high inflation and relatively low or stagnant economic
growth—stagflation. The combination of stagflation, falling exports, and multibillion-dollar repayments
to the International Monetary Fund has reduced confidence in the rupee, and these factors could
contribute to balance-of-payments problems for Pakistan.

Sixty percent of Pakistanis live on $2 or less a day, and more than one in five live on less than $1.25 a
day. Only half of Pakistanis over the age of 15 are employed and, although small businesses provide the
majority of new employment, they lack access to finance. Similarly, the agriculture sector, which
accounts for 21 percent of Pakistan’s gross domestic product and employs 44 percent of the labor force,
is constrained by insufficient investment and inappropriate policies.

The U.S. Government’s assistance program for Pakistan is designed to stimulate broad-based, inclusive
economic growth, particularly in agriculture, trade, and entrepreneurship, through projects that support
policy reform, improve access to finance, improve trade conditions, assist in workforce development,
increase agricultural productivity, and improve water management. DOC, USAID, USDA, and USTDA
support programs under this category of assistance.

                                                                                                      13
DOC. DOC has six programs and activities that support the Embassy’s economic growth initiative.

   Market research. This program aims to provide interested investors with information about
   promising sectors of Pakistan’s economy.

   Preliminary information memorandum development. This activity is designed to highlight projects with
   high potential for financial return.

   Event management. DOC sponsors investment promotion events and business exchanges between
   Pakistan and the United States under its Event Management Program. These exchanges include
   DOC-led Pakistani delegations to trade shows and industry conferences in the United States and to
   regional trade shows with a significant U.S. exhibitor presence. Delegates use these events to meet
   with prospective partner companies and suppliers, view technologies for increasing their efficiency
   and competitiveness, and identify sectors into which they could profitably diversify.

   In 2013, DOC plans to expand the number of delegations it sponsors under the program while
   strengthening links to USTDA activities and to other DOC programs. Plans for 2013 include
   support for delegations in the areas of information technology for financial institutions; franchising;
   packaging, logistics, and cold chain management; health care; and alternative and smart energy. In
   addition, DOC plans to expand its use of regional trade shows in the United Arab Emirates, where
   delegates can easily obtain visas and travel costs are reduced. DOC also has plans to host industry-
   focused digital videoconferences to help U.S. companies establish initial contact with Pakistani
   counterparts in a secure environment.

   Commercial law. The Commercial Law Development Program provides technical assistance in
   commercial law to foreign governments and private sector representatives with the aim of
   supporting their economic development goals. In September, DOC led a delegation of Pakistani
   officials and university and private sector representatives to the United States to learn more
   about approaches for strengthening university-to-industry partnerships for commercializing
   university-based research. The program gave participants a deeper understanding of the policies
   and tools used by U.S. universities to develop research solutions for industry needs. At the end
   of the program, two industry representatives reached out to participating university officials and
   offered seed capital funds for start-up university projects and collaboration on a robotics
   incubator.

   Business training for export diversification. In late August, DOC partnered with the Office of the U.S.
   Trade Representative, DOS, the Center for International Private Enterprise, and the Trade
   Development Authority of Pakistan to deliver a round table in Karachi on expanding and diversifying
   Pakistan’s exports to the United States. The event attracted 80 Pakistani business leaders and
   received positive television and print media coverage. DOC and its interagency partners plan to
   build on this event with follow-on support for entrepreneurs in FY 2013—for instance, through
   direct support in answering questions that arise about the U.S. Generalized System of Preferences

                                                                                                        14
    (GSP).4 The success of planned efforts in this area will be measured by the rate of GSP utilization
    along with the change in the proportion of Pakistan’s GSP-eligible exports to the United States.

    Business internship training. DOC’s Pakistan Special American Business Internship Training (SABIT) is
    designed to accelerate the diversification of Pakistan’s exports and to connect Pakistan i
    entrepreneurs with the business partners and suppliers they will need to help sustain Pakistan’s
    economic growth. DOC completed two SABIT programs in 2012 that provided business
    networking and training sessions in the United States for manufacturers of surgical instruments and
    business leaders in the gems and jewelry industry.

    In FY 2013, DOC plans to continue support for the surgical instruments sector by (1) sponsoring
    digital videoconference training events on quality control and U.S. Food and Drug Administration
    standards, (2) facilitating industry-to-university linkages and market research for the Pakistani
    surgical instruments sector, and (3) exploring opportunities for the sale of U.S. equipment and
    machinery requested by Pakistan’s surgical instruments industry. Planned support for the gems and
    jewelry industry includes a new SABIT program built around the premier industry trade show in the
    United States in June 2013.

    In addition to these programs, DOC is considering several service-oriented program opportunities
    including a Pakistan franchising initiative that would bring together Pakistani entrepreneurs and DOC
    experts on business training and the legal aspects of franchise development. Tentative plans call for
    a delegation to be selected to visit the United States in June 2013 to participate in the International
    Franchise Expo in New York City.

DOC has reported that the visa approval process continues to complicate its SABIT programming
efforts. Participant recruitment efforts must be accomplished under tight time constraints because
SABIT programs are often built around trade shows. However, the visa approval process makes it
difficult to recruit SABIT program candidates because their visas can take 6 months or longer to
process.

USAID. USAID currently has ten programs and three transfers of funds to other agencies (Table 4)
that contribute to agricultural and economic growth objectives. These programs support trade
facilitation, development of provincial irrigation systems, and production and sale of agricultural
commodities, among other activities.




4
  The U.S. Generalized System of Preferences promotes economic growth in the developing world by providing
preferential duty-free entry for products imported from designated beneficiary countries and territories.


                                                                                                        15
   Table 4. USAID Programs to Promote Economic Growth as of September 30, 2012
                                  (Unaudited)

                                                  Start   End       Implementing       Funding
      Name                 Description
                                                  Date    Date        Partner            ($)

                     Increases productivity,
Agribusiness         product quality, and                         Agribusiness
                                                  11/11   11/16                        36,700,000
Project              competitiveness of                           Support Fund
                     agribusiness value chains*

                     Strengthens evidence-
                                                                  International Food
Agriculture Policy   based policy analysis for
                                                  7/11    7/15    Policy Research      23,600,000
Project              food security and
                                                                  Institute
                     macroeconomic stability

                                                                  United Nations
Balochistan
                     Helps improve livelihoods                    (UN) Food and
Agriculture                                       1/09    12/15                        16,300,000
                     and food security                            Agriculture
Project
                                                                  Organization

                                                                  Dairy and Rural
                     Improves milk production
Dairy Project                                     7/11    7/14    Development           4,000,000
                     and increases sales
                                                                  Foundation

                                                                  Mennonite
                     Supports women’s
Entrepreneurs                                                     Economic
                     microenterprises in          6/09    6/14                         26,826,069
Project                                                           Development
                     vulnerable areas
                                                                  Associates

                     Assists small and
                     medium-size enterprises
                     in areas vulnerable to
Firms Project                                     5/09    4/13    Chemonics            72,388,726
                     conflict to help them
                     become internationally
                     competitive

                     Provides flood control
Gomal Zam            and irrigation water to
                                                  10/11   9/14    WAPDA                79,256,031
Irrigation Project   191,000 acres to increase
                     agricultural output




                                                                                              16
                                                        Start    End         Implementing     Funding
       Name                     Description
                                                        Date     Date          Partner          ($)

                          Provides technical
                          expertise to support the
                          establishment of public-                         International
Grain Storage
                          private partnerships for      4/11     10/12     Finance             2,500,000
Project
                          managing, handling, and                          Corporation
                          storing strategic grain
                          reserves

                          Provides flood control
Satpara Irrigation        and irrigation water to                          WAPDA / Aga Khan
                                                        1/11      3/17                        19,628,000
Project                   15,000 acres to increase                         Foundation
                          agricultural output

                          Improves customs
                          procedures and the
                          Pakistani Commercial
Trade Project                                           6/09      6/13     Deloitte           20,323,820
                          Service to increase
                          exports and trade at the
                          Afghan border

                          Provides business and
                          legal capacity building and
                          exchanges for Pakistani
                          entrepreneurs, and                    Reviewed
Transfer to DOC                                         2011               DOC                 4,000,000
                          representatives of                    annually
                          government ministries,
                          universities, and legal and
                          business institutions

                          Improves production and
                          sales of commodities,
                          enhances government                   Reviewed
Transfer to USDA                                        2009               USDA               40,000,000
                          research and extension                annually
                          work, and helps eradicate
                          agricultural diseases

                          Conducts feasibility
                          studies and provides
Transfer to               technical assistance in               Reviewed
                                                        2009               USTDA               8,000,000
USTDA                     transportation, energy,               annually
                          information technology,
                          and food security

Source: USAID/Pakistan.

                                                                                                     17
* A value chain includes all activities required to produce a product or service and deliver it to the final
  customer. Value chains include activities such as production, marketing, and distribution.


As of September 30, 2012, USAID reported that 821,112 rural households had benefited directly from
U.S. Government assistance. USAID also reported the following regarding developments and
achievements in its portfolio of economic growth and agricultural programs:

    The Agribusiness Project assessed horticulture and livestock sector status and established
    geographic target areas for interventions. The project trained 15 participants in quality certification
    for fruit, vegetable, and livestock products and provided technical training to 170 producers and
    processors. These events help prepare participants to meet internationally recognized certification
    standards for food processing and packaging and to apply good agricultural practices in horticulture,
    livestock, and dairy. The project recently received more than 4,700 applications in response to its
    extensively advertised call for proposals for grants to finance the expansion of business in the
    horticulture and livestock sectors.

    The Agriculture Policy Project completed data entry from a rural household survey and readied the
    data for analysis. The project is now conducting a pilot survey of irrigation and agricultural
    production in 19 districts, where it will collect data from 980 farm househ olds. Meanwhile, the
    project provided the Ministry of Finance with the results of economic modeling that showed the
    macroeconomic effects of electricity subsidies and demonstrated the importance of agriculture in
    reducing poverty.

    The Balochistan Agriculture Project constructed 4 drinking water facilities and 40 water diversion
    structures, rehabilitated 2 underground channels, and conducted 9 land-leveling activities. The
    project also completed 12 training activities on fruit orchard management, 10 on food processing for
    women, 8 on rural poultry management, 4 on leadership skills, and 1 on wool shearing. In addition,
    it sponsored four marketing missions and 5 field days for livestock farmers.

    During the quarter, the Dairy Project, a partnership with Nestle, trained 773 farmers in farm and
    livestock management, 253 technicians in artificial insemination, and 158 female livestock extension
    workers in livestock management and milk-marketing techniques.

    The Entrepreneurs Project registered and trained 8,370 producers in improved production practices
    during the quarter, bringing the total number of microenterprise owners benefiting from this project
    to 31,329. Further evidence of the project’s effectiveness emerged during the quarter, as the
    Hashoo Foundation, a local NGO and project partner, completed a survey to assess the results of
    the project’s dairy sector work in two villages in Bahawalpur District of Punjab Province. The
    survey showed a 29 percent increase in average milk yields per animal and a 38 percent increase in
    net sales by the beneficiaries.



                                                                                                         18
   The Firms Project launched the final phase of its efforts to promote tourism in Swat with the release
   of a radio campaign. The campaign’s programs and advertisements highlight USAID's role in
   rehabilitating Swat with a particular emphasis on the project's work with Swat’s tourism sector. The
   project also distributed equipment and tools—including hand carts, plastic crates, waterproof
   tarpaulins, orchard sprayers, and ladders—to 45 date farmers. In addition, with project assistance,
   the Murtaza Agriculture Farm in Sindh made its first commercial sea shipment of 16 tons of mangoes
   to the European Union.

   Work by WAPDA on the Gomal Zam Irrigation Project continued as planned. However, progress
   in the second half of the quarter slowed because of extreme weather—temperatures exceeding
   40 oC followed by torrential monsoon rains—and the kidnapping of WAPDA employees in mid-
   August. Despite these disruptions, WAPDA completed work on the diversion barrage and the main
   canal lining, and more than half of the work on the secondary canal lining as well as 40 percent of
   planned drainage work.

   In 2011, the Trade Project initiated research on Pakistan-India trade liberalization in collaboration
   with the Beaconhouse National University’s Institute of Public Policy . The research is to inform
   policy decisions and raise public and private sector awareness of cross-border trade issues. As of
   September 2012, the project had completed two of five planned studies. Also during the quarter,
   project advisers updated their initial assessment of operations and facilities at the Wagah -Attari
   border crossing.

USAID reported that security conditions and visa delays posed challenges in implementing economic
growth and agricultural programs. In late March, a Balochistan Agriculture Project vehicle was attacked,
and two people associated with the project were killed and a third injured. In mid-August, eight
workers on the Gomal Zam Dam were kidnapped, and one was subsequently killed. A video showing
the worker in captivity and then his dead body was posted online. The USAID mission also noted that
obtaining long-term visas for expatriate implementers poses a significant challenge.

USDA. USDA continues to manage implementation of agricultural development programs with funding
from USAID. These programs are designed to increase agricultural productivity through technical
exchanges, agricultural research, and control of plant and animal diseases. USDA programs are
implemented through international organizations, which, in turn, work with Pakistani universities,
Pakistani agricultural research groups, and government agencies to implement program activities.

USDA reported the following examples of progress and success for the quarter:

   Two groups of U.S.-based scientists visited Pakistan to review the progress of programs to enhance
   the production of wheat and cotton. The groups evaluated 2012 trials, reviewed laboratory results,
   and finalized program research plans for 2013.




                                                                                                     19
    During the quarter, USDA sponsored several international training opportunities for Pakistani
    scientists:

    -   Eleven Cochran Fellows traveled to the United States for advanced training in fisheries and
        aquaculture technology.5

    -   Eight Borlaug Fellows traveled to Kenya to train with International Maize and Wheat
        Improvement Center pathologists and evaluate Pakistani wheat varieties for disease resistance. 6

    -   Four Pakistani Fellows received training on molecular and genomic analysis of cotton leaf curl
        virus and resistance in cotton varieties at USDA’s Agricultural Research Service, Texas A&M
        University, and the University of Arizona.

    Under the USDA Program for Progressive Control of Foot and Mouth Disease, 22 senior Pakistani
    federal and provincial veterinarians traveled to Turkey. There they met with animal health
    regulatory officials and visited dairy farms to gain a better understanding of the technical and
    regulatory measures required to control the disease. Meanwhile, ongoing surveys of vaccinated
    animals in dairy colonies and villages in Pakistan continued to show control of foot and mouth
    disease.

    The development of course modules continued under the Plant and Animal Health Regulatory
    Capacity Building Program, with completion of the first module expected in October 2012. In
    addition, four Pakistani government officials traveled to the United States to participate in a USDA
    course on the U.S. approach to protecting plant health and facilitating trade in agricultural products.

    Under the Watershed Rehabilitation Program, construction of irrigation systems, rainwater
    harvesting dams, and water and soil conservation devices was completed at six demonstration sites.
    Ten Farmer’s Days were held at the sites, where more than 700 farmers attended technology
    demonstrations.

    USDA’s primary partner for the Aquaculture Feed Trial and Fisheries Productivity Enhancement
    Program, the American Soybean Association, signed an agreement with a Pakistani partner firm,
    Oryza Feeds, to produce soy-based fish feed with feed manufacturing equipment provided by the
    project.


5
  USDA selects mid- and senior-level professionals from middle-income countries, emerging markets, and emerging
democracies in the fields of agricultural trade, agribusiness development, management, policy, and marketing as
Cochran Fellows. Fellows under the program receive training to improve local agricultural systems and enhance
trade links with the United States.
6
  USDA selects Borlaug Fellows from among early- and mid-career agricultural researchers and policymakers in
developing and middle-income countries. Borlaug Fellows are provided research and training opportunities under
the program and receive up to 12 weeks of U.S.-based training a year.


                                                                                                            20
    Under the Remote Sensing for Crop Estimation Program, baseline assessments of the crop
    reporting and remote sensing capacity of Punjab and Sindh crop reporting services were completed.
    These baseline assessments were then used to identify computer hardware and software needs and
    to develop a prioritized procurement list.

USDA continues to work with provincial government authorities and successfully engage with the new
Ministry of National Food Security and Research. During this 3-month period, USDA also continued to
strengthen its technical links with government agencies and research centers and with Pakistani
universities by sponsoring exchange programs and site visits from USDA technical experts in watershed
management, crop forecasting, wheat, and cotton.

USTDA. USTDA activities emphasize infrastructure improvement in energy, transportation, and
information technology. These activities link Pakistani development interests with U.S. exporters and
American companies offering project solutions. USTDA measures the success of its activities both in
terms of exports of U.S. goods and services and positive development effects in Pakistan.

USTDA works with Pakistani grantees in the public and private sectors to conduct feasibility studies and
technical assistance activities. USTDA competitively selects U.S. contractors to perform expert
assessments and reverse trade missions.7

USTDA reported the following project developments and successes over the reporting period:

    In August 2012, USTDA approved funding to bring Pakistani public and private sector bank
    representatives to the United States to study U.S. information technology solutions for the banking
    sector. Tentatively scheduled to take place in early 2013, the reverse trade mission is designed to
    support modernization of the banking sector and increase Pakistani access to banking services,
    factors with potential to contribute significantly to the country’s economic growth.

    USTDA’s energy sector feasibility study and technical assistance activities help address Pakistan’s
    energy shortages and frequent power outages. By modernizing Pakistan’s grid and adopting
    renewable energy solutions, USTDA’s Pakistani partners will be able to decrease their energy use and
    reliance on fossil fuels, and improve service reliability.

    In September 2012, USTDA issued grants to Pakistani public and private sector partners in the
    energy sector. USTDA entered into a grant agreement with Pioneer Cement Limited, a large
    Pakistani cement manufacturer, to fund a feasibility study on incorporating a 35 - to 50- megawatt




7
  Reverse trade missions are trade delegation visits to the United States that enable foreign delegates to observe
the design, manufacture, demonstration, and operation of U.S. goods and services that could help them achieve
development goals.


                                                                                                               21
    biomass-fired power plant, a waste heat recovery system,8 and energy efficiency upgrades into the
    firm’s cement plant in Punjab Province. To improve electricity transmission and distribution, USTDA
    signed a grant agreement with the Islamabad Electric Supply Company to fund an assessment that will
    provide the basis for deploying smart grid technologies. To promote renewable energy, USTDA
    signed a grant agreement with Warid Telecom, a cellular service provider in Pakistan, to fund a
    feasibility study and pilot project on replacing diesel generators and lead acid batteries with
    methanol-based fuel cells and sodium batteries to power cell tower sites. This conversion will
    reduce Warid Telecom’s energy consumption and improve the reliability of mobile services for its
    more than 18 million subscribers.


Stabilization

The U.S. Government seeks to enhance stability in border areas and regions vulnerable to violent
extremism. The U.S. Government supports the Government of Pakistan in the Federally Administered
Tribal Areas (FATA) and Khyber Pakhtunkhwa through short-term development activities, long-term
investments in infrastructure, and support for incremental improvements in governance. Stabilization
activities are guided by the U.S. Government’s strategy for stabilization of Pakistan and closely aligned
with USAID’s 2010 Post-Crisis Needs Assessment for Khyber Pakhtunkhwa and FATA. Activities include
improving the responsiveness and effectiveness of the Pakistani Government in restoring citizen trust,
stimulating employment and livelihood opportunities, ensuring the delivery of basic services, countering
radicalization, and fostering reconciliation. INL and the U.S. Embassy’s POL and RSO support ongoing
assistance programs in this category, as do USAID and USIP.

INL. INL has seven programs in Pakistan that support improved security, legal reforms, and
counternarcotics. Aside from the limited direct assistance it provides to Pakistani NGOs engaged in
reducing the demand for drugs, INL implements all of its projects in partnership with the Government
of Pakistan. Partners include the Ministry of Narcotics Control, the Ministry of Interior, the FATA
Secretariat, the Pakistani police, and other civilian law enforcement agencies.

INL reported the following program developments during the quarter:

    Aviation Program. The INL-supported Air Wing continued to provide air support to Ministry of
    Interior agencies, including the Pakistani police, the Khyber Pakhtunkhwa and Balochistan Frontier
    Corps, the Punjab and Sindh Rangers, and several other agencies. The Air Wing flew more than 90
    hours in support of the flood relief operations of the Sindh and Balochistan Provincial Governments.
    The Air Wing transported more than 110 people affected by the flood and 26,000 pounds of food
    and supplies during flood relief operations, and flood relief efforts were continuing. The Air Wing
    also provided support to the Islamabad police during several anti-American demonstrations and


8
 Waste heat recovery systems are designed to reduce fuel demand by converting heat recovered from industrial
emissions and waste systems into energy.


                                                                                                           22
protests in September. Other missions this quarter included counterterrorism and medical
evacuations. In total, the Air Wing flew 659.9 hours during the quarter.

Corrections Program. Ten prison superintendents, the Inspector General of Prisons, and several
members of the Home Department from Khyber Pakhtunkhwa were cleared to participate in a 3-
week training program at the International Corrections Management Training Center in Colorado.
The October-November 2012 training program will present information for senior officials on
international standards and best practices for effective prison management and operation. In
addition to basic security procedures, the training program is designed to focus on topics of greatest
utility in Khyber Pakhtunkhwa, such as managing external threats, emergency response, prisoner
classification, transportation, and population control. INL has planned a similar training program for
National Academy for Prison Administration staff in January 2013. INL’s aim is to make this training
available to representatives of all provinces in Pakistan, and bureau representatives are in discussions
with officials in Sindh and Balochistan about sponsoring training sessions for them later in 2013.

Counternarcotics Program. Pakistan’s Anti-Narcotics Force requested INL assistance at levels that
would almost double INL’s support for drug interdiction activities in Pakistan. Decisions on future
INL support for the Anti-Narcotics Force are on hold, however, pending the arrival of a new
counternarcotics officer, which has been delayed because of visa approval issues.

In August, INL approved more than $500,000 in grants to support the activities of three Pakistani
NGOs working to reduce demand for drugs. And, in late September, with INL support, the
Colombo Plan launched its $500,000 program for training specialists in the treatment of drug
addiction. In addition, INL has sponsored a $500,000 nationwide survey of drug users administered
by the UN Office of Drugs and Crime (UNODC), which expects to have finished surveying all
households by the end of the year.

Rule of Law Program. During the reporting period, the U.S. Government delivered two courses to 75
prosecutors and investigators in Pakistan. The program also sent six senior Sindh Province
prosecutors to Jakarta, Indonesia for instruction on combatting money laundering.

Police Reforms Program. The program is committed to support Pakistani law enforcement agencies
with equipment, infrastructure, and training. For the training portion of the program, INL has
partnered with the U.S. Department of Justice’s International Criminal Investigative and Training
Program to help identify training opportunities and assist in their delivery. During the quarter, the
program delivered commodities valued at $919,000 to police in Balochistan, Khyber Pakhtunkhwa,
and Sindh, and made progress on infrastructure projects. Work on a new six-classroom training
facility at the Islamabad Police Lines (a police training academy) neared completion, and funds for
other infrastructure projects at the academy were released by Pakistan’s Ministry of Interior. These
additional funds will support the construction of a new 216-person barracks and renovation of the
women’s barracks at the Islamabad Police Lines, as well as renovation of the women’s police station
in Islamabad.

                                                                                                     23
    Crop Control and Area Development Project, Border Security and Infrastructure Program. During the
    reporting period, headquarters and barracks facilities were completed in FATA’s Orakzai Agency
    while work concluded on five Frontier Corps border posts in the Chitral District of Khyber
    Pakhtunkhwa and one in FATA’s Khyber Agency. Construction of the Frontier Corps portion of
    the Spina Thana operations center is about halfway done and on schedule. At the end of the fiscal
    year, the Javed Iqbal Police headquarters and barracks in Mingora and the Joint Police Training
    Center in Nowshera were 80 and 35 percent complete, respectively, and both Khyber
    Pakhtunkhwa-based projects were on schedule. INL held discussions with Khyber Pakhtunkhwa
    Police on funding the construction of Phase II of the Joint Police Training Center and Police Lines in
    Daggar (Buner District).

    A 17-kilometer stretch of the Jamrud-Landikotal (Mullagori) bypass was completed, as were
    8 kilometers of the Mattani bypass in Khyber Pakhtunkhwa. The retendering of the balance of work
    on Peshawar Ring Road, which took place during the last reporting period, was repeated in August
    and September because bids from the initial retendering were too high. The Ring Road is
    approximately 22 percent complete.

INL assistance efforts continue to be hampered by delays in the issuance of visas to Air Wing technical
advisers (15 visas pending) and the Foreign Service officer in charge of counternarcotics efforts. This
quarter, several law enforcement reform courses were rescheduled and different instructors had to be
found at the last minute because of visa delays.

INL also faced difficulties in implementing one of its drug interdiction programs. UNODC was unable to
complete INL-supported container control training because of noncompliance with human rights vetting
requirements. INL money for the training was refunded.

POL. The U.S. Embassy’s Political Section oversees implementation of the Export Control and Related
Border Security Assistance Program (EXBS) in Pakistan.

EXBS is designed to help participating countries improve their export control systems. In Pakistan,
EXBS assists the government to stem the proliferation of weapons of mass destruction and their
delivery systems, and prevent irresponsible transfers of conventional weapons. Since 2004, Pakistan has
made progress with EXBS assistance in strengthening its strategic trade controls through legal and
regulatory reforms and the development of licensing capability.

Although Pakistan has made significant strides in adopting strategic trade control legislation, Pakistan’s
national control list omits several commodities and technologies controlled under multilateral export
control regimes, and this remains a concern. EXBS therefore promotes Pakistan’s adoption of a
comprehensive national control list that includes all commodities covered under the control lists of the
Nuclear Suppliers Group, Missile Technology Control Regime, Wassenaar Arrangement, and Australia
Group.



                                                                                                       24
Pakistani border security agencies have poor communications infrastructure, lack needed equipment,
and face challenges in coordination across agency lines. Customs officer training is underdeveloped and
depends on foreign support. Accordingly, while focusing on trade controls, EXBS will increase the
delivery of training and equipment to Pakistani customs agencies, especially the Federal Board of
Revenue. In addition, the program will continue to support cross-border cooperation between Afghan
and Pakistani agencies engaged in trade control regulation and enforcement. The Department of
Homeland Security provides training in support of EXBS activities in these areas.

RSO. RSO contributes to improved security and legal institutions in Pakistan through the
Antiterrorism Assistance (ATA) Program. The program is designed to equip Pakistani law enforcement
to detect, deter, and respond to terrorist threats. The ATA program provides a full range of tactical
and investigative courses and support to officials from all the country’s provinces and the Frontier
Constabulary. The program’s strategic priorities in Pakistan are to train officials to recognize fraudulent
documents, manage and maintain border controls, and expand cooperation between police and
prosecutors.

During the reporting period, the program delivered one of eight scheduled courses. The course, which
was attended by 22 Pakistani officers, related to the management of efforts to protect national leaders.

RSO reported that obtaining visas for instructors in a timely manner continued to pose difficulties. Eight
ATA courses were postponed during the quarter because instructors were unable to obtain visas by the
scheduled date of instruction. Visa delays restricted an assessment and evaluation of the program, with
several assessment team members unable to take part in the June 2012 assessment trip. In addition,
RSO has not distributed equipment grants since March 2011 because of a lack of Pakistani Government
assistance in approving and importing the grant equipment. In one instance, equipment already en route
to Pakistan was turned back because of a lack of Government of Pakistan assistance in granting landing
approvals. Despite the above challenges, ATA program training continues to draw large numbers of
Pakistani law enforcement officers and has built significant capacity in counterterrorism skills like
explosive ordnance disposal.

USAID. USAID had 12 stabilization programs and 2 monitoring activities under way during the quarter
(Table 5). These programs provide cash transfers to compensate for housing damage, deliver vocational
training, and fund improvements in roads and electricity generation.

      Table 5. USAID Stabilization Programs as of September 30, 2012 (Unaudited)

                                                  Start       End         Implementing          Funding
       Name                 Description
                                                  Date        Date          Partner               ($)

Benazir Income
                      Provides cash assistance                          BISP, Government
Support Program                                    6/09       6/10                             160,000,000
                      to needy families                                 of Pakistan
(BISP)*



                                                                                                        25
                                                   Start   End       Implementing       Funding
      Name                Description
                                                   Date    Date        Partner            ($)

                   Establishes child
Child Protection   protection centers and                          UN Children’s Fund
                                                   9/10    12/12                          3,538,000
Program            provides support for                            (UNICEF)
                   psychological counseling

                                                                   National Database
Citizens’ Damage   Provides cash assistance                        and Registration
Compensation       to flood-affected               6/11    6/12    Authority,           190,000,000
Fund *             households                                      Government of
                                                                   Pakistan

                   Provides medical, psycho-
                   social, and livelihoods
Conflict Victims   support to Pakistanis
                                                   4/12    4/15           ***            20,245,806
Support Project    directly affected by
                   violence in FATA and
                   Khyber Pakhtunkhwa

                   Provides health
                   equipment and mobile
FATA Child
                   health units, reconstructs      9/06    12/12          ***            26,150,000
Health Project
                   health facilities, and trains
                   health-care providers

                   Improves roads; water
FATA               infrastructure; and
Infrastructure     electricity generation,         12/09   12/14          ***           291,986,537
Program            distribution, and
                   transmission

                   Increases the Secretariat’s
FATA Secretariat   capacity in participatory
Institutional      planning, management,
                                                   8/11    9/16           ***            10,698,085
Strengthening      and oversight of
Project            stabilization and
                   development activities




                                                                                                26
                                                 Start   End       Implementing           Funding
           Name           Description
                                                 Date    Date        Partner                ($)

                    Provides grants for
Khyber              restoration of damaged
Pakhtunkhwa,        infrastructure and
FATA, and           disrupted services,
                                                 7/10    12/15   World Bank                25,000,000
Balochistan         improvement of
Multi-Donor Trust   government service
       †
Fund                delivery, and maintenance
                    of community livelihoods

                    Supports the
                                                                 Provincial
                    reconstruction and
                                                                 Reconstruction,
                    recovery of conflict-
Khyber                                                           Rehabilitation and
                    affected districts and
Pakhtunkhwa                                                      Settlement
                    increases capacity for       3/10    12/14                            105,383,047
Reconstruction                                                   Authority (PaRRSA),
                    management and
Program                                                          Government of
                    oversight of stabilization
                                                                 Khyber
                    and development
                                                                 Pakhtunkhwa
                    activities

                                                                 PaRRSA,
Malakand and        Provides housing damage
                                                                 Government of
FATA Housing        assistance through a cash    6/10    9/12                              65,000,000
                                                                 Khyber
Support Program*    transfer
                                                                 Pakhtunkhwa

                    Supports monitoring and
Monitoring and
                    verification of USAID
Evaluation – FATA                                12/09   12/14            ***               5,786,536
                    investments in road and
and Malakand
                    electricity infrastructure

                    Supports monitoring and
Monitoring and
                    verification of USAID
Evaluation –                                     4/10    12/14            ***               5,760,000
                    investments in small-scale
Malakand
                    infrastructure

                    Supports conditions for
Pakistan            stability and development
                                                                 USAID Office of
Transition          in conflict-prone and        11/07   12/15                            207,076,547
                                                                 Transition Initiatives
Initiative          other priority areas of
                    Pakistan




                                                                                                  27
                                                    Start      End          Implementing          Funding
       Name                     Description
                                                    Date       Date           Partner               ($)

Radio
Transmitters in
                          Provides radio
FATA and Khyber                                     6/10       12/12              ***               8,656,471
                          transmitters
Pakhtunkhwa
Project

Source: USAID/Pakistan.

Note: A triple asterisk (***) indicates that the name of a USAID implementing partner has been withheld for
security reasons.

* USAID has fully disbursed assistance dollars to BISP, the Citizens’ Damage Compensation Fund, and the
    Malakand and FATA Housing Support Program but continues to monitor rupee disbursements to beneficiaries.
†
    USAID has also fully disbursed assistance dollars to the Khyber Pakhtunkhwa, FATA, and Balochistan Multi-
    Donor Trust Fund but continues to monitor project implementation activities.


As of September 30, 2012, USAID reported that 523 kilometers of road had been constructed or
repaired with U.S. Government assistance. USAID also reported the following program developments
in its stabilization portfolio over the quarter:

     The Child Protection Program continued to deliver services in communities that have been
     impacted by conflict and violence. During the quarter, 11,567 children and 658 women were
     registered and provided with information about services. To date, the project has registered
     119,872 children (49,470 girls and 70,402 boys) and 4,492 women. These registrations have
     expanded the Social Welfare Department’s caseload by 2,197 individuals, which will in turn improve
     tracking and follow-up to ensure child protection monitoring. The project has also helped increase
     official registration through the National Database and Registration Authority (NADRA). NADRA
     registration grew by 6,328 during the quarter to 100,318 children (50,505 girls and 49,183 boys).

     The Conflict Victims Support Project is designed to provide assistance to approximately 4,500
     families affected by conflict-related violence in FATA and Khyber Pakhtunkhwa. During the quarter,
     the contractor’s core team arrived and established a project implementation office in Peshawar.
     The program initiated baseline surveys and is finalizing agreements with the relevant departments of
     the Government of Khyber Pakhtunkhwa and the FATA Secretariat. In the meantime, it has
     gathered data on conflict victims from various government sources and will start delivering
     compensation to victims after verifying the data.

     The FATA Child Health Project, which was launched in cooperation with the FATA Health
     Directorate in December 2006, will end in December 2012. The project has worked to increase



                                                                                                          28
the use of key health services and the adoption of behaviors that support the health and
development of children. During the quarter, the project reached:

    82,802 mothers and children through 805 Health Immunization and Nutrition Days.

    19,480 people through 225 mobile health unit visits.

    21,843 women through 1,873 awareness sessions conducted by female health workers reached
    across FATA.

    3,000 students through 32 sessions at schools on health issues.

    25,149 men in all seven agencies of FATA through 2,133 sessions to sensitize men on health
    issues.

    21 health-care providers through training on integrated management of neonatal and childhood
    illness.

    137 female health workers through nine training sessions across FATA on integrated community
    management of neonatal and childhood illness.

The FATA Infrastructure Program completed 35 kilometers of road this quarter, including
15 kilometers of the 72-kilometer Wana-Makeen Road and 20 kilometers of the 65-kilometer
Bannu-Miran Shah Road. The Jandola Bridge is now in place and the bridges along the Jandola-
Sararogha Road are close to completion. Rehabilitation work on the Barang Road began in mid-
June, and rehabilitation of the retaining walls is now 90 percent complete with 18 percent of the
overall project finished.

The FATA Secretariat Institutional Strengthening Project reported several accomplishments:

–   Staff worked with Secretariat personnel to develop a final draft of local government regulations,
    which was presented to the Governor and FATA parliamentarians. The draft regulations were
    also posted on the FATA Secretariat’s Web site for public feedback. This was the first time that
    the citizens of FATA had an opportunity to provide feedback on draft legislation affecting
    them. The draft regulations will soon be presented to the Pakistani President for final approval.

–   Project staff installed a file tracking system in the Governor’s Office that was so well received
    that other sections of the FATA Secretariat have requested similar assistance. Project staff also
    developed software to help the Secretary of Planning and Director General of Projects manage
    project data and expedite the Planning Commission’s approval process. Additional testing and
    training for FATA Secretariat staff in using the project data system began during the reporting
    period.

                                                                                                  29
   –   Staff completed the monitoring and verification framework for the Directorate of Monitoring.

   –   Staff continued support for the FATA Information Directorate’s implementation of
       communications strategies that include the regular issuance of press releases on FATA
       development projects.

   The Malakand and FATA Housing Support Program compensates beneficiaries whose houses were
   damaged during the militancy and ensuing military operations that concluded in 2009. During the
   quarter, the program disbursed an additional $1 million to 394 beneficiaries in the Bajaur Agency of
   FATA, bringing total disbursements in FATA to approximately $22 million for 7,200 beneficiaries.
   Overall, the program has now provided compensation to about 70 percent of eligible beneficiaries.

   The Khyber Pakhtunkhwa Reconstruction Program continued to support reconstruction and
   recovery efforts in the districts affected by conflict and flooding. During the quarter, USAID and
   PaRRSA signed implementation letters for the rehabilitation of 13 water and sanitation systems and
   13 partially damaged basic health units. Meanwhile, rehabilitation and reconstruction of the
   Amandara and Munda Headworks and the Khwazakhela Bridge progressed. In all, the program has
   now completed construction on 27 schools.

   The Pakistan Transition Initiative supported the FATA Secretariat and the Government of Khyber
   Pakhtunkhwa in organizing eight anticorruption conferences in June and July for nearly 300
   participants, including suppliers, vendors, and contractors. The conferences, which were the first of
   their kind in the area, highlighted positive project management practices such as fair and open
   bidding and how to identify, report, and manage instances of corruption. USAID recently completed
   an evaluation of the program and found that it has increased public confidence in the Government of
   Pakistan, expanded the government’s presence, contributed to stability, enhanced citizens’ sense of
   security, and provided invaluable assistance through relief and development projects.

USAID reported the following challenges affecting the implementation of its stabilization programs:

   In April 2012, a second-tier subcontractor for the Radio Transmitters in FATA and Khyber
   Pakhtunkhwa Project filed a lawsuit against the prime contractor, USAID, a Pakistani Government
   agency, and others. As a result of a related court order, construction activity has been stayed in
   Peshawar, and the room housing equipment and transmitters at the site has been sealed. In
   addition, appropriate visas for the contractor to mobilize engineering teams have yet to be approved
   and a number of import certifications needed for the project to progress remain outstanding.
   Nevertheless, USAID has been seeking ways to move the project forward. The contractor, USAID,
   and the Pakistan Broadcasting Corporation are working to resolve administrative issues and,
   although the project continues to face delays in Peshawar, project activities in Dera Ismail Khan in
   Khyber Pakhtunkhwa are set to begin shortly.




                                                                                                      30
    The Malakand and FATA Housing Support Program is experiencing disbursement delays in the
    Mohmand Agency of FATA. According to the FATA Disaster Management Authority, an initial
    survey of the number of damaged houses in the Agency that was used to plan compensation efforts
    significantly understated the number of damaged homes. The program is requesting an increase in
    its allocation for the Agency based on revised figures on the number of damaged homes. USAID is
    working with PaRRSA to use leftover funds to compensate additional beneficiaries in Mohmand
    Agency and to expedite disbursements in FATA. However, disbursements under the program are
    now expected to be completed later than originally planned.

USIP. USIP supports stabilization in Pakistan by promoting religious tolerance and peaceful interfaith
dialogue while countering extremist messages. USIP is working to accomplish associated objectives
through a 2½-year program with three components: (1) a grant competition to build the capacity of civil
society to counter extremism and promote peace and religious tolerance, (2) content analysis and
mapping of local media outlets and the extent to which they broadcast or publish extremist or
counterextremist messages, and (3) policy research on and analysis of religious intolerance and
extremism.

USIP kicked off a new project in August under its grant competition. The project is designed to
promote tolerance, pluralism, and nonviolence by cultivating critical thinking skills in schools through
training. Meanwhile, USIP’s four continuing priority grant programs carried out activities to respond to
extremist propaganda and empower marginalized women through radio programming, combat youth
extremism through dialogue, and increase the conflict-management skills of the police through training
and community engagement.

USIP also selected two partners for its media analysis project on countering extremist voices during the
quarter. Local media consultations and work on an audience survey to validate the analytical framework
for the project are now underway.

Finally, USIP commissioned three more research projects during the reporting period. These projects
are designed to (1) study the drivers of extremism in southern Punjab, (2) report on conflict dynamics in
Gilgit-Baltistan, and (3) examine the forces behind sectarian conflict in Pakistan as a whole.


Education

Pakistan’s education system faces serious challenges. According to the UN Educational, Scientific and
Cultural Organization’s 2011 Education for All Global Monitoring Report, Pakistan ranks 119 out of 127
countries on the Education for All Development Index. Pakistan’s school system is beset by chronic
underfinancing, poor quality, and corruption, resulting in some of the worst and most unequal results on
education indicators in South Asia. Less than three-quarters of school-age children are enrolled in
primary school. Children who do attend school encounter poorly equipped classrooms and teachers
who are ill prepared for the job. Only 49 percent of children complete Grade 5; of those, less than half
can read a simple sentence. In higher education, Pakistan remains far behind most of its neighbors in

                                                                                                      31
terms of quality, access, and capacity. Institutions of higher learning in Pakistan lack productivity-
enhancing technologies, and university graduates are not always prepared to lead the country’s growth.
In 2011, only 7.8 percent of 17- to 23-year-olds in Pakistan had access to higher education. This is a
significantly smaller proportion than in Nepal (10 percent) and similar to rates in sub-Saharan Africa.

The United States aims to improve access to high-quality education through its assistance to provincial
governments and universities. Assistance includes repairing and rebuilding schools and colleges,
providing teaching and learning materials, renovating and building teacher education facilities, improving
teacher preparation, strengthening the reading skills of primary-grade students, improving provincial and
district management and policies, developing fund-raising programs for university scholarships,
supporting faculty exchanges in applied research in key disciplines, and fostering effective oversight of
education by civil society. The U.S. Embassy’s PAS and USAID support programs for educational
improvement.

PAS. PAS focuses on maintaining exchange programs and expanding in-country English instruction and
alumni programs. PAS exchange programs are largely implemented through U.S.-based, nonprofit
institutions, but related outreach and recruitment activities are conducted in association with Pakistani
Government entities, the media, educational institutions, and NGOs. The United States Educational
Foundation in Pakistan (i.e., the Fulbright Commission), in particular, is heavily engaged in the
recruitment and selection of participants for academic and professional programs.

From July 1 to September 30, 2012, PAS engaged in an intense interview and selection process for next
year’s academic programs. More than 400 applicants were interviewed for the U.S. master’s and Ph.D.
degree programs and the midcareer, 1-year nondegree program in the United States. Approximately
200 candidates were selected for the master’s and Ph.D. programs and 30 for the mid-career program.
These students will depart for the United States in August 2013. In addition, 100 Pakistani
undergraduate students arrived at various U.S. universities for semester-long nondegree programs, and
108 high school students arrived in the United States for 1-year exchange programs in U.S. high schools.
In July, 28 Pakistani 16- to 25-year-olds participated in 6-week leadership institutes hosted at U.S.
universities. The institutes focused on public policy, women’s empowerment, and conflict resolution.

PAS also continued to support the development of university partnership programs. PAS plans to
sponsor eight this fiscal year. This quarter, PAS has awarded five university partnerships, bringing the
total to six. The five new partnerships include partnerships between Ball State University and Quaid-e-
Azam University in Islamabad; Ball State University and Isra University in Hyderabad; San Jose State
University and Allama Iqbal Open University in Islamabad; the University of Oklahoma and the
University of Gujrat; and Southern Methodist University and Shaheed Benazir Bhutto Women’s
University in Peshawar. The two remaining university partnerships were in the final stages of
negotiation in September. These partnerships will create faculty development programs, staff and
student exchanges, online classes and video conferences, joint research projects, and other activities.

In addition to these partnerships, PAS is supporting a multifaceted 1-year program to enhance the civic
engagement of Pakistani universities through partnerships with U.S. universities known for their civic
                                                                                                       32
leadership. The partnerships established through this project are designed to help to strengthen people-
to-people ties between the United States and Pakistan by (1) linking five U.S. universities with five
Pakistani universities for an exchange involving small delegations of faculty and staff, (2) training a larger
number of Pakistani universities in civic engagement through a train-the-trainer curriculum, and (3) using
technology to deepen information exchange on best practices, establishing university policies, engaging
with civil society organizations, and developing student and community leadership through civic
engagement and volunteering.

PAS also put 5-year funding in place during the quarter to establish an office and professional staff for a
nationwide, Pakistani-led alumni association.

During the reporting period, PAS awarded a contract to JOBS International Private Limited to evaluate
the Global Undergraduate Exchange Program, which provides fellowships for semester-long
undergraduate study in the United States to emerging student leaders from underrepresented sectors in
Pakistan. The evaluation is to begin in October 2012.

PAS reported that program participants and partners continued to face harassment during this reporting
period. According to PAS, domestic security agencies harassed Pakistani citizens who participated in
PAS exchanges, organizations that implement PAS programs, and attendees at PAS-sponsored events.
PAS is concerned that such continuing harassment will harm its programs in the long run.

USAID. At the end of the reporting period, USAID had eight education programs and projects under
way and one transfer of funds to another agency (Table 6). These programs focused on improvements
in basic and higher education by providing training for teachers, scholarships for students, and support
for reconstruction and renovation of schools. The Children’s Television Project, which produced Sim
Sim Hamara (Pakistan’s version of ―Sesame Street‖), concluded in September 2012. Although the
program was successful in reaching children with educational messages, serious procurement violations
identified by OIG signaled that further investment of U.S. Government resources in the project was
unwise.

        Table 6. USAID Education Programs as of September 30, 2012 (Unaudited)

                                                    Start       End         Implementing           Funding
       Name                  Description
                                                    Date        Date          Partner                ($)

Earthquake-
Damaged Schools        Reconstructs earthquake-                           CDM Constructors
                                                   10/06        4/13                              147,454,624
Reconstruction         damaged schools                                    Inc. (CDM)
Program

                       Trains primary and
Education Quality      middle school teachers                             American Institutes
                                                   10/07       10/12                                95,314,430
and Access Project     and renovates conflict-                            for Research
                       damaged schools

                                                                                                           33
                                                       Start     End        Implementing       Funding
       Name                     Description
                                                       Date      Date         Partner            ($)

                          Provides merit and
                          needs-based scholarships
                          for students to study at
Higher Education
                          Pakistani higher education                      Higher Education
Commission                                             3/10     2012                            93,000,000
                          institutions; initially                         Commission
Support
                          provided budget support
                          to the Higher Education
                          Commission

Merit and Needs-          Provides bachelor’s and
                                                                          Higher Education
Based Scholarship         master’s degree              6/04      3/16                           13,223,605
                                                                          Commission
Program                   scholarships

                          Supports early grade
Sindh Basic               reading program,
                                                                          Sindh Department
Education                 provides technical           9/11      9/16                           91,700,000
                                                                          of Education
Program                   assistance, and supports
                          reconstruction of schools

                                                                          Educational
Teacher Education         Provides preservice
                                                       5/11      9/13     Development           37,000,000
Project                   education for teachers
                                                                          Center

United States-            Provides opportunities
Pakistan Science          for cooperation between
                                                                          National Academy
and Technology            Pakistan and the United      9/05      7/18                           12,502,034
                                                                          of Sciences
Cooperative               States in science and
Program                   technology

                          Supports construction of
Women's Hostel            a 360-bed women’s                               Forman Christian
                                                       7/11      8/14                            7,300,000
Project                   dormitory at Forman                             College
                          Christian College

                          Provides scholarships to                        PAS and United
Transfer to
                          Pakistani graduate                   Reviewed   States Educational
PAS – Fulbright                                        9/04                                    151,500,000
                          students to study at U.S.            annually   Foundation in
Scholar Program
                          universities                                    Pakistan

Source: USAID/Pakistan.


As of September 30, 2012, USAID reported that U.S. Government-supported education programs had
strengthened the skills of 4,825 educators. USAID also reported the following education project
developments this quarter:
                                                                                                      34
   Pakistan’s Planning Commission formally approved the Sindh Basic Education Program in August
   2012, permitting the government-to-government support component of the program to proceed.
   Meanwhile, USAID worked with the Sindh Department of Education to select seven target districts
   in Sindh and five target towns in Karachi for the implementation of program activities. The Teacher
   Resource Center, the implementer for the reading component of the program, took steps to reduce
   USAID-assessed financial management risks and was hiring project staff and setting up three field
   offices at the end of the reporting period.

   The Teacher Education Project continued to emphasize capacity development and training by
   working in tandem with the Higher Education Commission, provincial education departments, and
   partner colleges and universities to expand and deliver programs culminating in a 2 -year associate’s
   degree in education and a 4-year bachelor of education honors degree. The project also helped 7
   universities develop strategic plans and 47 teacher training colleges develop improvement plans
   prioritizing interventions to improve existing infrastructure and capacity development. These plans
   will serve as the basis for future needs-based grants under the program.

   Universities approved the designs for construction of six new schools of education and one school
   renovation. USAID funds the design of the buildings in line with the specifications developed by
   participating universities in consultation with the Teacher Education Project. Construction work
   started at Hazara University in Khyber Pakhtunkhwa in September 2012 , while contractors were
   being selected for three of the other building projects

   The recently completed evaluation of the Merit and Needs-Based Scholarship Program is informing
   planning for the next round of scholarships for admission into the fall 2013 class. Scholarships will
   be awarded in more disciplines to improve the employability of graduates and will be expanded to
   increase gender parity.

   During the reporting period, the National Academy of Sciences called for proposals for the fifth
   cycle of grants under the United States-Pakistan Science and Technology Cooperative Program. For
   this grant cycle, the program is seeking research proposals focusing on technology transfer,
   entrepreneurship, innovation, and commercialization of innovations in education, health, nutrition,
   water and sanitation, agriculture, democracy and governance, environment, energy, the social
   sciences, and economic development. Meanwhile, USAID extended its cooperative agreement with
   the National Academy of Sciences for program implementation through June 2018.

   The Education Quality and Access Project, which will end in October 2012, began closeout activities
   during the reporting period. The project’s final evaluation and financial review were conducted this
   quarter, and the final reports are expected by the project end date.

USAID also reported some challenges to the implementation and administration of its education
projects this quarter. Financial and human resource constraints in provincial governments have set back
the pace of reforms under the Teacher Education Project, and the frequent posting and transfer of

                                                                                                     35
senior level counterparts by the Governments of Khyber Pakhtunkhwa and Sindh has hindered
implementation of project activities. In response, the project is working to raise awareness of the
impact of the government transfer policy on continued implementation of project activities.

USAID also noted difficulties in transferring project vehicles to a Pakistani Government entity. As part
of its closeout activities, the Education Quality and Access Project anticipated transferring 20 vehicles to
Sindh’s project management implementation unit. Because Pakistani government entities face difficulties
in obtaining tax-exempt status and financial constraints in paying duties on vehicles, the transfer could
not proceed. The 20 vehicles will now be transferred to the Teacher Education Project and lent to the
Government Colleges for Elementary Teachers partnering with USAID.


Health

The quality of basic health services in Pakistan is uneven, with the rural population particularly
underserved. Improving the quality of care is complicated by inadequate Government of Pakistan
funding for the health sector, a fast-growing population, and ongoing confusion in the wake of the
devolution of health-care responsibilities to the provinces. Pakistan’s high fertility rate is expected to
more than double the population by 2050, further straining social services, increasing pressure on
economic and environmental resources, and adversely affecting the nation’s health. Health sector
responsibilities were transferred to the provinces following the enactment of the 18th Amendment to
Pakistan’s Constitution in 2010. However, the transfer was initiated without adequate planning or
strategic dialogue. The provinces have limited financial and human resources with which to address
additional health-care functions and remaining federal responsibilities are fragmented and uncoordinated.
A lack of leadership at both the federal and provincial levels and ongoing disagreements over financial
responsibilities have crippled some basic primary and preventive health services.

Pakistan has the fourth highest maternal mortality ratio in Asia, and fewer than four in ten births are
attended by skilled health personnel. Pakistan is one of three countries where polio is still endemic, and
the Afghanistan-Pakistan border areas are regarded as the greatest challenge to polio eradication
globally.

The U.S. Government supports the Government of Pakistan and Pakistan’s private and nonprofit sectors
in accelerating progress toward child and maternal health goals by expanding high-quality, cost-effective
maternal, newborn, and child health services and increasing health service demand and access among the
nation’s poor. The health program portfolio seeks to improve access to and quality of essential family
planning and maternal and child health services through public sector capacity building, civil and private
sector service delivery, and the establishment of public-private partnerships.

USAID. USAID had eight programs and one transfer of funds to another agency to support health
services in Pakistan during the reporting period (Table 7). These programs focus on improving maternal
and child health, family planning, polio eradication, and renovating and reconstructing facilities. USAID
works to strengthen health systems through policy reform and technical assistance as well as through

                                                                                                         36
human resource development, improvements to public sector procurements of contraceptive
commodities and other key health supplies, and enhancements to logistics and supply chain management
systems. USAID also continues to dedicate significant resources to support Pakistan’s Emergency Polio
Eradication Program.

         Table 7. USAID Health Programs as of September 30, 2012 (Unaudited)

                                                 Start    End         Implementing         Funding
      Name                 Description
                                                 Date     Date          Partner              ($)

                     Supports a survey to
Demographic and                                                     Macro International
                     collect data on national    1/11     12/15                             3,700,000
Health Survey                                                       Inc.
                     health indicators

                     Assists with the
                     devolution of nearly all
Health Care
                     public health
Management                                       1/11      1/13     John Snow Inc.          3,000,000
                     responsibilities from the
Project
                     federal to provincial
                     ministries

Health Services      Develops institutional
                                                                    Health Services
Academy Support      capacity in public health   7/08     12/12                             7,747,527
                                                                    Academy
Project              training and research

                     Procures tuberculosis,
                     HIV, and vaccination-
Health Supplies
                     related materials and       4/10      4/15     Various               105,420,953
Project
                     equipment for national
                     distribution

Jacobabad Civil
                     Hospital renovation         10/10    10/13     CDM                    11,049,000
Hospital Project

                     Reconstruction of an
Jinnah Post-
                     extension to the
Graduate Medical                                 10/10    10/13     CDM                     5,629,069
                     obstetrics and
Center Project
                     gynecology/fistula ward

                                                                    John Snow Inc.,
                     Provides an integrated
                                                                    Population Services
Maternal and         program of health
                                                                    International /
Child Health         services to save lives of   5/12      5/17                           387,100,000
                                                                    Greenstar, Jhpiego,
Program              women, infants, and
                                                                    and Marie Stopes
                     children
                                                                    International



                                                                                                  37
                                                       Start    End         Implementing     Funding
       Name                     Description
                                                       Date     Date          Partner          ($)

                          Provides support for
                          national polio eradication
                                                                          UNICEF and the
Polio Vaccination         efforts through national             Reviewed
                                                       1/03               World Health       22,370,271
Program                   campaigns, disease                   annually
                                                                          Organization
                          surveillance, and
                          communications

Transfer to the
Centers for
Disease Control                                                           CDC, U.S.
and Prevention            Provides training to                            Department of
                                                       8/05     11/14                         6,783,494
(CDC) – Field             epidemiologists                                 Health and Human
Epidemiology and                                                          Services
Laboratory
Training Program

Source: USAID/Pakistan.

As of September 30, 2012, USAID reported that eight polio immunization campaigns had been
completed. USAID also reported the following health program developments this quarter:

    With technical and operational assistance from USAID implementing partners, the Government of
    Pakistan conducted a national polio immunization campaign in mid-July 2012 in 163 districts,
    agencies, and towns. In total, 32 million children were vaccinated during the campaign. An
    additional subnational immunization campaign targeting 16.9 million children in 89 districts and
    agencies was carried out in September 2012. Intensified polio immunization efforts supported by
    USAID may have contributed to a reduction in cases of the disease. Whereas Pakistan had 99
    reported cases of polio in September 2011, this year there were only 37 confirmed cases.

    Under the Health Supplies Project, 70 percent of the required cold chain equipment has been
    provided to the Punjab Health Department. This support will help ensure the quality of routine
    immunization services provided to children to combat eight deadly diseases including diphtheria,
    tuberculosis, hepatitis, pneumonia, and influenza. The project is also supplying the National AIDS
    Control Program with diagnostic equipment to assist with prevention and treatment activities. In
    addition, it is supplying the National Tuberculosis Control Program with microscopes and
    laboratory equipment, x-ray equipment, and medicines for multidrug resistant tuberculosis.

    Work on the 60-bed obstetrics and gynecology ward at the Jinnah Postgraduate Medical Center in
    Karachi proceeded ahead of schedule. Construction of the new ward, which will provide surgery
    and treatment for fistula and other complications and serve as a training institute for up to 150
    under-graduate and post-graduate medical students, was substantially completed by the end of

                                                                                                    38
   September 2012. The completed ward will be handed over to the Medical Center during the first
   quarter of FY 2013 after equipment and security bars are installed.

   Following significant political delays and extended negotiations with the Government of Sindh, the
   Chief Minister of Health authorized direct funding of the planned Jacobabad Hospital by the Finance
   Department and agreed to give it the status of an Institute of Medical Science with an independent
   governing body. Once these approvals are ratified by the Sindh Provincial Assembly, USAID can
   proceed with construction of the planned facility. As this approval process is expected to take
   months, construction of the hospital is unlikely to proceed before the second quarter of FY 2013.

   USAID’s Maternal Child Health Program is designed to consolidate health sector efforts and provide
   comprehensive technical assistance nationally while placing special emphasis on Sindh Province. The
   family planning component of the new Maternal and Child Health Program began in August 2012
   with a mapping exercise to plan outreach in rural and underserved areas. The health
   communications component of the program, which began in late September, will spearhead a
   campaign to announce the formal launch of the program. Meanwhile, a rapid assessment of the
   health system in Sindh was completed to inform the solicitation process for the health systems
   strengthening component of the program.

USAID also reported health program implementation challenges associated with security and weather
conditions. National and subnational polio vaccination campaigns were delayed in Sindh, Balochistan,
and parts of Punjab because of heavy rains and localized flooding. Polio vaccination campaigns could not
be completed in FATA’s North and South Waziristan and Gadap District in Sindh Province because of
security concerns, and the potential for reaching the approximately 200,000 children in these areas is
still unclear.


Crosscutting Priorities: Good Governance, Gender Equity, and Greater
Transparency

The crosscutting priorities of U.S. Government assistance—improved governance, gender equity, and
greater transparency—are integrated, as appropriate, into programs in the sectors discussed in the
previous sections of this report. The U.S. Government also supports programs focused exclusively on
these areas. DRL, the Embassy’s PAS, and USAID support programs in this category of assistance.

DRL. DRL supports ten projects that strengthen human rights, support democratic institution s,
promote fair labor standards, and encourage interfaith dialogue (Table 8).




                                                                                                     39
    Table 8. DRL Human Rights and Democracy Programs as of September 30, 2012
                                   (Unaudited)

                                                  Start   End      Implementing         Funding
      Name                Description
                                                  Date    Date       Partner              ($)

                    Supports human rights
Balochistan
                    initiatives in Balochistan    10/11   9/13   Consulate Karachi       500,000
Initiative
                    through small grants

                    Monitors, documents, and
Documenting                                                      International
                    analyzes reports of
Human Rights                                      9/12    3/15   Commission of          1,300,000
                    human rights abuses by
Abuses                                                           Jurists
                    security forces

                    Advocates for the rights
Empowering                                                       International
                    of home-based workers,
Home-Based                                        9/11    3/13   Catholic Migration      484,186
                    strengthens cooperatives,
Women Workers                                                    Commission
                    and builds their capacities

                    Increases the capacity,
Ensuring the
                    sustainability, and
Protection of
                    geographic reach of local
Human Rights                                      9/11    3/13   Freedom House           792,080
                    organizations that protect
Defenders and
                    human rights and
Journalists
                    journalists

                    Supports development of
Ethnic and          enhanced madrassa
                                                                 International Center
Religious           teaching materials and a
                                                  9/11    3/13   for Religion and        410,000*
Minorities School   university madrassa
                                                                 Diplomacy
Curriculum          teacher training
                    certificate course

                    Increases skills of
                    journalists and civil
Promoting Media
                    society groups; works
Transparency on
                    with media outlets to         9/11    9/13   Internews              1,229,700
National Security
                    ensure that reporting
Issues
                    reaches broader
                    audiences




                                                                                              40
                                                      Start       End           Implementing            Funding
       Name                   Description
                                                      Date        Date            Partner                 ($)

                        Promotes peaceful
                        coexistence, mutual
Promoting
                        understanding, and                                   Church World
Peaceful Co-                                          1/11        12/14                                  648,543
                        respect among religious                              Service
Existence
                        minorities and the Muslim
                        majority in Pakistan

                        Enhances the role of the
                        legal profession and the
Protecting Human
                        justice sector in                                    American Bar
Rights While
                        protecting and                7/12        6/14       Association Rule of         990,099
Countering
                        strengthening human                                  Law Initiative
Terrorism:
                        rights and the rule of law
                        in national security

                        Increases the capacity of
Strengthening
                        elected women
Women
                        parliamentarians by                                  Search for Common
Parliamentarians                                      9/11        9/13                                   909,000
                        bolstering engagement in                             Ground
for Effective
                        decision making at the
Government
                        provincial levels

                        Builds trade union and
                        worker organizations’
Strengthening           organizational and
Worker and Trade        managerial capacity in        4/09        9/13       Solidarity Center          1,095,049
Union Rights            collective bargaining, dues
                        collection, recruitment,
                        and other areas

Source: DRL.

*   This program operates in both Pakistan and Saudi Arabia. The funding figure provided is for the Pakistan
    component of the program.


DRL provided the following information regarding program developments over the quarter:

    As part of DRL’s Promoting Media Transparency on National Security Issues effort, Internews issued
    production grants to help journalists from conflict zones develop stories they were eager to do but
    for which they previously had insufficient resources or support. A total of 23 grant applications
    were approved; several journalists started work on their stories with the support of mentors who
    received program training on mentoring and coaching during the quarter. The program also
    prepared its second media monitoring report during the quarter. The report, which will be released

                                                                                                               41
    in October, will provide in-depth information on Pakistani media coverage of Afghanistan along with
    ideas for improving Pakistani coverage of the Afghan conflict.

    DRL’s implementing partner for the Strengthening Worker and Trade Union Rights screened and
    selected nine local unions to participate in upcoming DRL-funded training along with 46 others
    previously selected. Program staff also completed a baseline survey of selected unions and a
    discussion paper with recommendations for strengthening Pakistani trade union structures at the
    local, regional, and national levels.

    The Ethnic and Religious Minorities School Curriculum project kicked off its second 6-week
    certificate course for Pakistani madrassa teachers and administrators at the International Islamic
    University in Islamabad in late September 2012. The course emphasizes the importance of critical
    and independent thinking, promotes tolerance as an essential Islamic and educational virtue, and
    develops teachers’ intersectarian, interfaith, and intercultural competencies. Initial evaluations from
    the first course offering in the spring indicated that the course was very popular among participants
    and was likely to positively influence their teaching. For many of the participants, it was their first
    opportunity to learn about modern theories of education and to interact substantively with teachers
    of other religious sects.

DRL cited several challenges in implementing its programs: (1) ensuring that programs stay relevant as the
country prepares for the next national elections; (2) addressing organizational and participant safety when
implementing project activities in conflict areas; (3) adjusting to delays in project activities because of
difficulties within counterpart organizations and street protests; and (4) responding to delays in partner
NGO re-registration with Pakistani Government ministries.

PAS. As part of the U.S. Embassy’s strategic communication efforts, PAS’s English Language Access
Program provides English instruction to 5,000 Pakistani students between the ages of 14 and 18. PAS is
examining ways to strengthen the impact and expand the reach of its English-language programs and in
August brought in an additional officer with a Pakistan-specific focus for this purpose.

USAID. USAID has seven programs and projects designed to improve governance, gender equity, and
transparency (Table 9). In addition, USAID transfers funds to PAS to support exchanges, and funds a
contract to enhance the Agency’s project monitoring and evaluation. USAID’s projects in this category
of assistance include a hotline for the public to register complaints, support to organizations that oppose
domestic violence and gender discrimination, and broad civil society support. In addition to its ongoing
programs, USAID is planning a program to monitor the upcoming national elections.




                                                                                                        42
 Table 9. USAID Good Governance, Gender Equity, and Transparency Programs as of
                        September 30, 2012 (Unaudited)

                                                   Start   End        Implementing          Funding
      Name                 Description
                                                   Date    Date         Partner               ($)

Anti-Fraud           Allows citizens to report
                                                                   Transparency
Hotline Project /    waste, fraud, and abuse of
                                                   1/09    9/15    International–           2,650,000
Anti-Corruption      U.S. Government funds
                                                                   Pakistan
Project              through a free hotline

                                                                   Rural Support
                     Conducts preaward                             Programs Network,
Assessment and       assessments and develops                      Lahore University of
Strengthening        the capacity of Pakistani     10/10   10/15   Management              19,400,000
Program              organizations to manage                       Sciences, and
                     assistance funds                              Associates in
                                                                   Development

                     Makes small grants to civil
                     society organizations for
                     advocacy projects that                        Trust for
Citizens’ Voice      support citizen                               Democratic
                                                   5/11    9/15                            11,600,000
Project              participation in energy,                      Education and
                     economic growth,                              Accountability
                     education, health, and
                     stabilization

                     Makes small grants to
Gender Equity        organizations opposing
                                                   8/10    8/15    Aurat Foundation        19,868,429
Program              domestic violence and
                     gender discrimination

Independent          Provides mission-wide
                                                                   Management
Monitoring and       support for monitoring,
                                                   6/11    6/16    Systems                  7,000,000
Evaluation           evaluation, and the
                                                                   International
Contract             PakInfo system

                                                                   Provincial
Municipal Services   Improves delivery of basic
                                                                   governments’
Program, Sindh       municipal services,
                                                   7/10    7/15    planning and           119,924,194
and Khyber           including water in
                                                                   development
Pakhtunkhwa          Jacobabad and Peshawar
                                                                   departments




                                                                                                  43
                                                        Start   End      Implementing         Funding
       Name                     Description
                                                        Date    Date       Partner              ($)

                          Improves the
Political Parties         transparency and                             National
Development               accountability of Pakistani   7/11    7/13   Democratic             6,298,790
Project                   political parties to their                   Institute
                          constituents

                          Makes small awards for
Small Grants and                                                       National Rural
                          community initiatives that
Ambassador's                                            8/10    8/15   Support Programme     21,500,000
                          support U.S. foreign
Fund Program                                                           (NRSP)
                          assistance objectives

                          Conducts exchange
Transfer to PAS –         programs and in-country
                                                                       DOS Bureau of
Exchanges /               English language
                                                        7/05    2015   Educational and       23,740,000
Strategic                 instruction that support
                                                                       Cultural Affairs
Communications            strategic communications
                          objectives

Source: USAID/Pakistan.


As of September 30, 2012, USAID reported that 233 local NGOS had received support through U.S.
Government assistance since the inception of its small grants programs in 2010. USAID also provided
the following information on recent developments associated with its governance and gender-equity
assistance programs:

    The Citizens’ Voice Project has advertised four grant cycles for awarding civil society advocacy
    grants. It awarded 33 grants in its first two cycles and 38 third-cycle grants were under
    consideration at the end of September 2012. Grants awarded under the program have addressed
    themes related to municipal services, energy reform, water rights, and education sector reforms.

    The Gender Equity Program has been facilitating the work of NADRA to register women in remote
    rural areas. So far, more than 117,000 women have registered to receive a computerized national
    identity card through the program. In addition to these efforts, the program has made 100 grants
    valued at $4.8 million to provide support for activities such as legal training for women’s rights
    lawyers and community advocacy campaigns on gender-based violence. The program’s current grant
    cycle is focused on providing (1) support to shelters for victims of gender-based violence, (2)
    counseling and economic support for victims, (3) the operation of related help lines, and (4) public
    information and advocacy on gender-based violence.

    The Municipal Services Program made progress in Khyber Pakhtunkhwa during the quarter. The
    Government of Khyber Pakhtunkhwa established a program management unit, several positions of

                                                                                                     44
    which are being staffed by provincial government employees on detail from other units and by
    Assessment and Strengthening Program personnel, who will provide financial management and
    information technology assistance. Applications for other program management unit positions were
    received and reviewed during the quarter. Meanwhile, program staff prepared tenders for quick-
    start activities to improve and expand water, wastewater, drainage, and solid waste infrastructure in
    four administrative divisions in Peshawar. These tenders have been issued to contractors who
    prequalified for participation this quarter.

    The Municipal Services Program also made strides in Sindh Province. The Government of Sindh has
    committed to fund the establishment of a project management unit for the program, and took steps
    during the quarter to make this funding available. The provincial program’s steering committee met
    for the first time and approved the inclusion of four additional towns in the program. A detailed
    topographical survey of the project area, which will be used in integrating infrastructure systems
    (e.g., water, wastewater, and solid waste systems), began during the period.

    To date, 98 awards totaling $13.7 million have been made under USAID’s Small Grants and
    Ambassador’s Fund Program. Communities have praised these investments, noting that they have
    responded to some of the most urgent community priorities in energy, vocational training,
    agriculture, basic education, and water and sanitation.

USAID noted two continuing challenges in implementing programs for improved gender equity and
governance: (1) women’s equal participation in the full range of development programs, and (2) the
implementation of the 18th Amendment, which devolved responsibilities to local authorities, was not
accompanied by legislation to empower decision-making bodies below the provincial level.

Humanitarian Assistance
The U.S. Government continues to provide humanitarian assistance in Pakistan as the country grapples
with both man-made and natural crises. Ongoing military operations and militant activity that began in
August 2008 have resulted in a sizable internal displacement in Khyber Pakhtunkhwa and FATA. With
the help of UN agencies and the international community, Pakistan continues to recover from flooding
in 2010 and 2011, while also strengthening crisis planning mechanisms and implementing disaster risk-
reduction methods to decrease the devastation of future floods. The country also hosts some 1.7
million registered Afghan refugees, as well as approximately 1 million unregistered Afghans who reside in
Pakistan as economic migrants. The first wave of refugees arrived in 1979, leading to one of the largest
and most protracted refugee situations in the world.

DOS’s Bureau of Population, Refugees, and Migration and USAID manage and coordinate humanitarian
assistance programs and activities in Pakistan on behalf of the U.S. Government.




                                                                                                      45
PRM. PRM’s main goals in Pakistan are to meet humanitarian assistance needs, maintain safe spaces for
refugees, support durable solutions for Afghan refugees and migrants, and advance the sustainability of
PRM services through successful transitions.

The UN High Commissioner for Refugees (UNHCR) is PRM’s primary partner in Pakistan in assisting
Afghan refugees. UNHCR provides protection and essential services to refugees and oversees their
repatriation to Afghanistan. Since 2002, 3.7 million Afghan refugees have returned to Afghanistan
through UNHCR’s voluntary repatriation centers in Pakistan. With PRM support, UNHCR and the
International Committee of the Red Cross also provide protection and assistance to people in Pakistan
affected by conflict and natural disaster.

In addition, PRM partners with 12 NGOs in Pakistan to provide Afghan refugees and host-community
members with primary education, maternal and child health care, livelihood and skills development, as
well as to prevent and respond to gender-based violence (Table 10).

Table 10. PRM Humanitarian Assistance Programs as of September 30, 2012 (Unaudited)

            Name                            Description                 Start     End         Funding
                                                                        Date      Date          ($)

Community-Based
Comprehensive Health             Provides services to refugees and
Services and Livelihoods         host community members in and
Opportunities for Afghan         around three refugee settlements in    09/12     08/13       919,852
Refugees and Host                the Pishin and Quetta Districts of
Communities in Balochistan       Balochistan
Refugee Camps

                                 Provides primary education, skills
Education, Skills, and           development activities, and response
Protection for Afghan            services for victims of gender-based
                                                                        09/12     09/13       367,602
Refugees and Host                violence to Afghans and host-
Communities Program              community members in semiurban
                                 Quetta, Balochistan

                                 Improves the livelihoods of 100
Improving the Income of
                                 extremely vulnerable women by
Vulnerable Women Through                                                08/12     02/13        25,000
                                 providing an improved breed of
Income Generating Activities
                                 layer hens

Improving Livelihood
                                 Improves livelihood opportunities
Opportunities for Afghans and
                                 for Afghan refugees and local youth
Local Communities by                                                    09/12     09/13       235,411
                                 through skills training and job
Imparting Skills in Demand
                                 placement
Driven Trades


                                                                                                    46
                                                                         Start   End     Funding
            Name                            Description
                                                                         Date    Date      ($)

                                Supports seven government health
                                facilities in Balochistan’s Quetta
Integrated Afghan Refugee       District in providing quality maternal
                                                                         09/12   08/13   900,000
Assistance Program              and child health care and health
                                education to Afghan refugees and
                                members of the host community

                                Provides basic health services and
                                improves skills of 300 Afghan refugee
Mansehra Health, Vocational
                                men and women in the Barari,
Training, and Market                                                     07/12   06/13   592,725
                                Ichrian, and Khaki refugee villages in
Development Program
                                the Mansehra District of Khyber
                                Pakhtunkhwa

                                Provides Afghan refugees and host-
                                community members primary and
Primary Healthcare,             reproductive health care and health
Repatriation, and Gender-       and hygiene information, and
Based Violence Support for      prevents and responds to gender-         05/12   04/13   900,000
Afghan Refugees in Khyber       based violence in seven refugee
Pakhtunkhwa                     villages and one urban area of the
                                Peshawar, Swabi, and Buner Districts
                                of Khyber Pakhtunkhwa

Skills Training and Income      Provides skills training and job
Generation for Urban Afghan     placement services to Afghan
                                                                         07/12   06/13   599,957
Refugees in Rawalpindi-         refugees in Rawalpindi-Islamabad and
Islamabad and Peshawar          Peshawar

                                Builds the capacity of and increases
Strengthening Community-
                                access to community-based health
Based Healthcare Services for
                                care for Afghan refugees by training
Afghan Refugees and Building
                                health workers to reduce maternal        09/12   09/13   443,567
a Bridge to Better Quality
                                mortality rates in the Swabi, Mardan,
Facility Services Through
                                Nowshera, and Charsadda Districts
Capacity Building
                                of Khyber Pakhtunkhwa

Strengthening Existing          Provides primary school education
Learning Structures of          to refugee children in urban Quetta
                                                                         02/12   01/13   192,795
Marginalized Afghan and         and helps assess their nutritional and
Minority Children in Quetta     basic health-care needs




                                                                                              47
                                                                             Start      End     Funding
             Name                                Description
                                                                             Date       Date      ($)

                                     Provides skill training and improved
Strengthening Livelihood             breeds of poultry and livestock to
Systems of Afghan and                Afghan refugees and their host          09/12      09/13   312,548
Pakistani Communities                communities in the Lower Dir
                                     District of Khyber Pakhtunkhwa

                                     Provides access to health care and
Transition Support
                                     basic education for Afghan refugees
Programming for Afghan                                                       07/12      11/12   250,000
                                     in Balochistan and Haripur in Khyber
Refugees in Pakistan
                                     Pakhtunkhwa

Source: PRM, U.S. Embassy Islamabad.

Note: This table omits the names of PRM’s implementing partners for security reasons.


PRM provided the following information on recent program developments and achievements related to
its humanitarian assistance programs:

    The Quetta-based Education, Skills, and Protection for Afghan Refugees and Host Communities
    Program continues to make progress in addressing gender-based violence through training for
    religious and community leaders, medical practitioners, and law enforcement agencies. In addition,
    the program has provided 6 months of training in tailoring and embroidery to 300 women , raising
    their incomes by as much as 20 percent. PRM’s implementing partner has also enrolled 500 out-of-
    school Afghan children in five community education and skill centers where they are learning basic
    literacy and numeracy skills.

    PRM’s Integrated Afghan Refugee Assistance Program, which is also based in Quetta, has health and
    livelihood components. The health component of the program has provided maternal and child
    health-care services to 170,000 Afghan refugees and members of their host communities. The
    program implementer has successfully handed over four renovated and upgraded health facilities to
    the government, which is making them a permanent part of its health system. These facilities
    provide around-the-clock basic emergency obstetric care services that are supplemented by the
    work of the program’s home-based health clinics operated by community midwives. Meanwhile, the
    livelihood component of the program has increased the incomes of 200 men and women through
    6 months of vocational training. The program has also helped increase the incomes of more than
    500 vulnerable refugee women through assistance with the management and rearing of improved
    poultry breeds.

    Much like the program discussed above, PRM’s Mansehra Health, Vocational Training, and Market
    Development Program has two components: one related to health, and the other associated with
    skills development for income generation. Under the health component of the program, PRM’s

                                                                                                     48
   NGO partner has provided reproductive health services to more than 60,000 Afghan refugees,
   80 percent of whom were women and children. The NGO has also trained a network of
   377 volunteer community health workers from the refugee community and is working on
   transferring services provided through its three basic health units to government-supported health
   clinics in the vicinity. As a result of the program’s efforts, refugees’ health standards now exceed
   those of members of their host communities. Under the program’s skill development component,
   PRM’s NGO partner has trained more than 600 men and women, 70 percent of whom were Afghan
   refugees. As a result of the training, more than 360 beneficiaries have secured employment in their
   respective trades thereby increasing their income by an average of 40 percent.

   The Primary Healthcare, Repatriation, and Gender-Based Violence Support Program continues to
   support survivors of gender-based violence through counseling and medical assistance. In addition,
   the program has provided primary and reproductive health care to more than 153,000 Afghan
   refugees in Khyber Pakhtunkhwa through its work at five health units. The program’s NGO has
   succeeded in keeping mortality rates below the UNHCR standard of 1.5 deaths per 1,000 individuals
   a month during the project period. According to the NGO, there have been no polio cases where
   it is working despite the recent polio outbreak in Pakistan. The NGO has successfully transferred
   the provision of health services at two facilities in Swabi and Peshawar to other health facilities in
   the area.

   The Skills Training and Income Generation for Urban Afghan Refugees Program used a household
   survey and market-based assessment to target refugee training activities in Rawalpindi. When the
   program followed up with the 534 refugees who completed vocational training activities in FY 2011,
   it found that 285 of them had found jobs and 148 had started their own businesses. Because of this
   success, PRM’s NGO partner is expanding the number of trainees and opening a new training facility
   in Peshawar, which is host to the highest concentration of refugees in Pakistan.

USAID. USAID’s Offices of Food for Peace (FFP) and U.S. Foreign Disaster Assistance (OFDA)
provide humanitarian assistance in response to complex emergencies and natural disasters in Pakistan.
Both offices manage their programs from Washington, D.C., but have assigned technical experts to
Pakistan to coordinate activities with the USAID mission’s technical and provincial offices. These
experts provide links with other humanitarian assistance actors in Pakistan and advise the mission on
emergency conditions and ways for USAID to respond to them.

FFP has contributed to the food security of internally displaced persons (IDPs) in Khyber Pakhtunkhwa
and FATA since 2009 and of those throughout Pakistan who were affected by the 2010 and 2011 floods.
FFP provides in-kind and cash assistance.

FFP channels the bulk of its assistance through the UN World Food Programme (WFP). WFP provides
food rations to IDPs while they are away from home and for 6 months after their return. It provides
supplementary food for malnourished children and for pregnant and lactating mothers. WFP also



                                                                                                      49
provides rehabilitation and reconstruction assistance in the form of food rations for workers on
projects to rehabilitate community infrastructure.

WFP began food distributions within 2 days of the 2010 flood and distributed food rations to 7 million
beneficiaries at the height of the flood response in October of that year. During the 2011 flood
response, WFP supplies reached more than 4 million people in Sindh and Balochistan after the Pakistani
Government requested international assistance. During these two flood response efforts, FFP
contributions accounted for more than half of WFP’s emergency operations.

After the initial phase of the flood response, FFP funded an NGO program to distribute food vouchers
to vulnerable families. Under the program, each family received a booklet of food vouchers to be
redeemed for selected food items.

As of September 30, 2012, USAID reported the following examples of program developments and
achievement in FFP humanitarian assistance programs:

   With FFP support, WFP reached more than 250,000 people in July 2012 alone through food-for-
   work and cash-for-work activities in the flood-affected districts of Sindh and Balochistan Provinces
   and in Azad Jammu and Kashmir. Work projects under the program help communities withstand
   future floods through the rehabilitation of irrigation and drainage canals, construction of raised
   platforms, rehabilitation of drainage canals, reconstruction of livestock sheds, and establishment of
   kitchen gardens.

   As part of Pakistan’s Zero Hunger campaign launched by the Prime Minister in March 2012, the
   Government of Pakistan agreed to contribute wheat from its reserves to WFP for displaced persons
   in FATA and Khyber Pakhtunkhwa. The Government of Pakistan’s determination to transfer
   50,000 metric tons of grain to WFP will help meet the cereal needs of this target population for the
   remainder of the calendar year. The first 20,000 metric tons were released, processed, and
   distributed during the quarter, reducing the need for additional FFP contributions.

USAID’s OFDA responds to humanitarian needs in Pakistan that result from natural and man-made
disasters. OFDA launched a robust humanitarian response to the 2005 earthquake, which left
2.8 million Pakistanis homeless. In 2009, OFDA ramped up activities to address the needs of people
displaced by conflict in Khyber Pakhtunkhwa and FATA. And, in 2010, when historic floods affected
two-fifths of the country and more than 18 million people, OFDA responded by providing assistance
that spanned all humanitarian sectors. This assistance laid the foundation for OFDA’s rapid response to
monsoon flooding that occurred in Sindh and Balochistan in 2011.

Heavy monsoon rains that began in late August 2012 triggered flooding in Pakistan that affected nearly
4.8 million people, resulted in 430 deaths, and damaged or destroyed more than 402,000 houses
according to Pakistan’s National Disaster Management Authority. As of September 30, 2012, the
Government of Pakistan had not requested international humanitarian assistance, but had requested that

                                                                                                     50
some humanitarian organizations distribute emergency relief items in coordination with local authorities.
OFDA staff in Islamabad assessed the impact of the flooding and considered humanitarian response
options in coordination with other partners on the ground.

Meanwhile, OFDA continued its humanitarian response strategy of supporting conflict-affected
populations—particularly newly displaced people in Khyber Pakhtunkhwa and FATA—as well as
providing sustained assistance to communities affected by the 2010 and 2011 floods to enable them to
recover from the devastation. For newly displaced individuals, OFDA has focused on health and water,
sanitation, and hygiene assistance, as well as on the provision of shelter and emergency relief supplies ;
for IDPs returning home, it prioritizes economic recovery and agriculture support. In addition, OFDA is
working with disaster-prone communities to reduce their vulnerability to disaster through community-
based initiatives to manage disaster risk.

During the quarter, OFDA provided nearly $9 million in additional funding to meet priority humanitarian
needs and aid the economic recovery of people displaced by conflict or flooding. Total OFDA
assistance to Pakistan amounted to nearly $27 million in FY 2012. This assistance builds on the nearly
$432 million in emergency relief funding provided by USAID/OFDA over the previous 10 years.

Twelve OFDA programs were active in Pakistan at the end of the reporting period (Table 11). OFDA’s
Tahafuz (Protection) and Bahaal Programs, which provided emergency relief and early recovery projects
for flood-affected persons, concluded in late September.

 Table 11. USAID OFDA Humanitarian Assistance Programs as of September 30, 2012
                                (Unaudited)

                                                                          Start    End         Funding
             Name                            Description
                                                                          Date     Date          ($)

                                  Seeks to improve the disaster risk
                                  management capacity and strategies
                                  of poor and vulnerable populations
                                  and key stakeholders in Sindh
Community-Based Disaster
                                  Province’s Badin, Tharparkar, Thatta,   07/11    03/13       1,342,678
Risk Management Program
                                  and Umerkot Districts through
                                  sustainable preparedness and
                                  mitigation measures and increased
                                  institutional capacity.




                                                                                                       51
                                                                      Start   End     Funding
            Name                          Description
                                                                      Date    Date      ($)

                               Supports the World Health
                               Organization’s Disease Early
                               Warning and Response System,
Disease Early Warning and      which gathers and analyzes national
                                                                      07/12   12/12   3,700,000
Response System Support        health data to enable detection and
                               response to epidemic-prone diseases
                               and reduce resulting disease
                               transmission and death.

                               Addresses immediate shelter, food
                               security, and other basic needs of
Emergency Cash Grant
                               vulnerable IDPs who have been
Support to Off-Camp
                               displaced from FATA’s Khyber           07/12   04/13   2,400,000
Vulnerable IDP Families From
                               Agency since January 2012 and are
Khyber Agency
                               residing with host communities in
                               Khyber Pakhtunkhwa.

                               Provides economic recovery
Facilitating Economic          assistance to people whose
Recovery in Southern           livelihoods were depleted or lost as   07/12   04/13   2,400,000
Pakistan                       a result of floods in southern
                               Pakistan.

                               Rehabilitates damaged shelters and
                               provides training on building
                               weather-resistant structures for
Providing Shelter              people affected by flooding in Sindh
Rehabilitation and Cluster     Province and supports the Shelter      05/12   05/14   5,000,000
Support                        and Non-Food Item Cluster lead to
                               facilitate the development of
                               common strategies and promote
                               information sharing.

                               Provides speedy, targeted grants to
                               partners with the capacity, local
Responding to Pakistan’s
                               knowledge, and access required to      08/09   09/13   5,682,000
Internally Displaced (RAPID)
                               meet the needs of IDPs, their host
                               communities, and returnees.




                                                                                             52
                                                                            Start        End     Funding
             Name                               Description
                                                                            Date         Date      ($)

                                    Supports the construction of cost-
Shelter Support for Flood-          effective shelters using traditional
Affected Populations of Sindh       housing techniques while                05/12        05/14   3,200,000
Province                            incorporating disaster risk reduction
                                    measures.

                                    Provides conflict-displaced
                                    individuals and members of host
                                    communities in FATA with access to
Supporting Conflict-Displaced
                                    safe drinking water as well as
People in FATA and Khyber                                                   07/12        03/13   600,000
                                    improved sanitation and
Pakhtunkhwa
                                    environmental health and hygiene
                                    practices to reduce the risk of
                                    waterborne disease.

                                    Provides coordinated, locally
                                    appropriate, cost-effective, and
Supporting the Recovery of          durable shelter assistance and
Flood-Affected People in            sustainable food security support to    03/12        02/13   2,230,734
Southern Sindh Province             vulnerable households that lost their
                                    homes as a result of monsoon
                                    flooding in 2011.

                                    Provides support to OCHA for
UN Office for the
                                    humanitarian assistance coordination
Coordination of Humanitarian                                                01/12        12/12   300,000
                                    and information management
Affairs (OCHA) Support
                                    activities countrywide.

                                    Provides support for emergency
UN Office for Project Services
                                    shelters, one-room transitional         01/11        11/12   6,000,000
Support
                                    shelters, and shelter repair kits.

                                    Provides information management
WFP Support                         support, logistics coordination, and    08/10        12/12   2,850,000
                                    warehouse construction assistance.

Source: USAID/OFDA.

Note: This table omits the names of OFDA’s implementing partners for security reasons.


USAID provided the following examples of program developments and achievements in OFDA
humanitarian assistance programs during the reporting period:



                                                                                                        53
OFDA supports training for community disaster-management committees and schoolteachers on
disaster-response techniques through its Community-Based Disaster Risk Management Program. As
of early August 2012, OFDA’s implementer had trained 14,812 people in disaster preparedness,
mitigation, and management; assisted in the development of nearly 125 community plans for disaster
risk reduction; and organized 11 events for disaster response and recovery advocacy. These
activities continued throughout the reporting period as the organization distributed disaster
preparedness materials to community members and trained newly established local emergency
response teams in search and rescue.

OFDA continued to provide support to a rapid-response fund known as RAPID to address the
needs of IDPs, their host communities, and returnees in Pakistan. Since establishing the RAPID Fund
in 2009, OFDA has awarded nearly $18 million to support more than 100 activities that benefit an
estimated 2.6 million conflict- and flood-affected people in Pakistan, half of them women.

As most aid is focused on formal refugee camp settings, OFDA has focused on providing cash grants
to IDPs from Khyber Agency living outside camps. This emergency cash grant support program is
designed to help 35,000 conflict-affected people purchase basic goods and services, while protecting
current assets, preventing additional debt, and supporting local markets in areas of displacement in
Khyber Pakhtunkhwa’s Peshawar District.

In September, OFDA ended the Tahafuz (Protection) Project which provided economic recovery
assistance to people whose livelihoods were depleted or lost as a result of floods in southern
Pakistan. By the end of August 2012, OFDA’s project implementer had helped form approximately
396 community organizations to rehabilitate community infrastructure using local labor. The project
mobilized 5,063 households to work on 433 work sites. To facilitate the work, district offices each
received 40 sets of tools, or a total of 120 tool sets. The implementer also worked with
communities to select more than 742 beneficiaries to receive cash grants to replace lost assets,
rehabilitate homes, and invest in income-generating activities, with priority given to vulnerable and
female-headed households.

During the quarter, OFDA supported ongoing efforts to rehabilitate damaged shelters and provide
training on building weather-resistant structures as part of its shelter rehabilitation and cluster
support project. The project had assisted approximately 7,500 vulnerable families in Sindh by the
end of the reporting period, and had provided 6,394 families with emergency relief supplies. Project
activities also support the Shelter and Non-Food Item Cluster’s work to develop common strategies
and promote information sharing to reduce duplication and inequities in flood response assistance.

OFDA continued to meet the recovery needs of 38,500 people whose homes were destroyed by
severe 2011 monsoon flooding in southern Sindh Province. Within the first 4 months of the
intervention, shelter activities reached 2,247 individuals and tree-planting training benefited
2,590 people. Those living in shelters also benefit from tree-planting inputs and will also receive
kitchen gardening kits and training under the program to reduce food insecurity.

                                                                                                  54
Assistance to Pakistani Institutions

To ensure greater responsiveness and increase the sustainability of civilian programs, the U .S.
Government plans to continue to implement programs through Pakistani institutions, including national
and provincial governments and NGOs, when feasible. 9 The purpose of this focus is to:

       Align programs with locally identified priorities.

       Build Pakistanis’ sense of ownership of programs.

       Build Pakistani institutional and leadership capacity for better fiscal management.

       Promote decentralization to engage provincial and local partners and beneficiaries more actively.

       Deliver on-budget assistance10 to promote transparency, harmonization, and better budget planning
       by the Government of Pakistan.

       Reduce costs.

USAID awarded more than $1.268 billion to Pakistani institutions during FY 2010 and $439.5 million to
Pakistani institutions during FY 2011. USAID reported awarding approximately $492.1 million during
FY 2012 (Table 12). Awards made by USAID in FY 2012 fall into one of the following three categories:
direct funding for government projects, awards to nonprofit Pakistani organizations, and awar ds to
Pakistani for-profit entities.

 Table 12. USAID Assistance to Pakistani Institutions Since October 1, 2011 (Unaudited)

                                                                                  Number of         Value ($) of
    Implementing Partner, Project
                                                                                   Awards          Subobligations

    Direct Funding for Government Projects                                              28           410,512,731

    FATA Secretariat, Barang Road and Silay Patay Bridge in Bajaur                       1              2,000,000

    FATA Secretariat, Ghulam Khan-Bannu Road                                             1           106,310,673


9
  The Enhanced Partnership with Pakistan Act of 2009 encourages appropriate use of Pakistani firms and NGOs to
implement the programs authorized under Title I of the act (Section 101(c)(3)).
10
    Delivering U.S. assistance through Pakistan’s own budgetary, spending, and accounting systems as much as possible
is expected to help the Government of Pakistan meet the fiscal targets required by the International Monetary Fund
and raise Pakistanis’ awareness of where U.S. funds are going and how they harmonize with resources from the
Government of Pakistan and other donors. On-budget assistance should also help reduce disruptions in
implementation by enabling federal and provincial governments to improv e budget planning and cash-flow
management.


                                                                                                                 55
                                                                        Number of    Value ($) of
Implementing Partner, Project
                                                                         Awards     Subobligations

FATA Secretariat, Jandola Bridge reconstruction                              1         4,125,425

FATA Secretariat, Jandola-Sararogha Road, Repair of bridges                  1         1,158,820

FATA Secretariat, Kaur-Wana Road, Repair of flood damage                     1         6,254,588

FATA Secretariat, Kundiwam Dam and Dhana Irrigation Projects, Swat           1        18,000,000

FATA Secretariat, Reactivation and Rehabilitation of Transformers and
                                                                             1         3,530,000
Tension Lines

FATA Secretariat, Sararogha-Janjal Road                                      1        19,557,582

FATA Secretariat, Sararogha-Makeen Road, Repair of bridges                   1         6,939,654

FATA Secretariat, Tank-Makeen Road, Repair of flood damage                   1         4,090,215

FATA Secretariat, Tank-Makeen Road, Ahmad Wam Tunnel                         1           279,740

FATA Secretariat, Tank-Makeen Road, Kotkai Tunnel/Bypass                     1         1,651,558

FATA Secretariat, 132 kilovolt-ampere transmission line from                 1         8,270,000
Gomal Zam Dam

Government of Khyber Pakhtunkhwa, Municipal Services Program                 1        55,000,000

* Government of Sindh, Sindh Municipal Services Program                      1        22,000,000

PaRRSA, Capacity building                                                    1         2,600,000

PaRRSA, Construction of integrated government complex                        1         2,500,000

PaRRSA, Flood-damaged infrastructure: Amandara Headworks                     1         6,564,000

PaRRSA, Flood-damaged infrastructure: Khwazakhela Bridge                     1         4,980,000

PaRRSA, Flood-damaged infrastructure: Munda Headworks                        1         8,495,000

* PaRRSA, Khyber Pakhtunkhwa School Reconstruction Program                   1        25,000,000

PaRRSA, Khyber Pakhtunkhwa Reconstruction Program, Health recovery
                                                                             1         2,863,282
and supplies

PaRRSA, Malakand Reconstruction and Recovery Program, Construction of
                                                                             1         1,342,194
schools

PaRRSA, Malakand Reconstruction and Recovery Program, Health recovery
                                                                             1         2,000,000
and supplies

PaRRSA, Malakand Reconstruction and Recovery Program, Water and
                                                                             1         3,000,000
sanitation systems

                                                                                               56
                                                                             Number of    Value ($) of
Implementing Partner, Project
                                                                              Awards     Subobligations

Sindh Department of Education, Sindh Basic Education Program,
                                                                                  1        20,000,000
Construction of schools

Sindh Department of Education, Sindh Basic Education Program, Reforms to
                                                                                  1        20,000,000
upgrade and merge schools

WAPDA, Gomal Zam Multipurpose Dam Project                                         1        52,000,000

Awards to Pakistani Nonprofit Organizations                                      10        51,419,240

Aga Khan Foundation, Satpara Irrigation Project                                   1         1,928,595

Agribusiness Support Fund, USAID’s Agribusiness Project                           1        10,300,000

Aurat Foundation, Gender Equity Program                                           1         4,250,000

Dairy and Rural Development Foundation, Dairy Project                             1         4,426,744

Health Services Academy, Health Services Academy Support Project,                 1         2,551,164
Developing and strengthening capacity in public health and research

NRSP, Small Grants and Ambassador’s Fund Program                                  1        11,500,000

Rural Support Programs Network, Emergency relief and early recovery for           1         1,502,737
Pakistan flood victims

* Teachers Resource Center, Sindh Basic Education Program, Reading
                                                                                  1        10,000,000
program

Transparency International-Pakistan, Anti-Fraud Hotline                           1         1,360,000

Trust for Democratic Education and Accountability, Citizens’ Voice Project        1         3,600,000

Awards to Pakistani Private Sector, For-Profit Entities                          12        30,183,579

* Abacus Consulting, FATA Secretariat Institutional Strengthening Project,
                                                                                  1         6,780,215
Capacity building

* Asian Trading Company, Malakand school supplies                                 1         4,226,807

Associates in Development (Pvt.) Ltd., FATA Infrastructure Program,               1         3,446,537
Monitoring and evaluation in South Waziristan

Associates in Development (Pvt.) Ltd., Assessment and Strengthening
                                                                                  1         3,777,000
Program

* Befare, Transition Initiatives, Monitoring and evaluation services              1           500,000



                                                                                                    57
                                                                                Number of    Value ($) of
 Implementing Partner, Project
                                                                                 Awards     Subobligations

 Habib Rafiq International (Pvt.) Ltd., Construction of Pakistan Institute of
                                                                                     1         1,226,075
 Parliamentary Services Building

 Halcrow Pakistan (Pvt.) Ltd., Sindh Basic Education Program                         1         2,989,756

 Halcrow Pakistan (Pvt.) Ltd., Municipal Services Program—Khyber                     1         1,100,000
 Pakhtunkhwa, Peshawar

 Halcrow Pakistan (Pvt.) Ltd., Women's Hostel Project                                1           653,563

 Interflow Communications (Pvt.), Public Communications Project                      1         4,980,191

 National Development Consultants (Pvt.) Ltd., Education Quality and
                                                                                     1           352,435
 Access Project

 National Engineering Services Pakistan (Pvt.), Milestone verification—Gomal
                                                                                     1           151,000
 Zam Irrigation Project

 Total                                                                              50       492,115,550

Source: USAID/Pakistan.

* Awards made to Pakistani institutions from June 15 to September 13, 2012.


Prior to disbursing funds, USAID’s Office of Financial Management performs preaward assessments of all
prospective partner organizations. The assessments examine organizational and managemen t structure,
accounting and financial management systems, internal controls, technical capabilities, and quality
assurance capabilities, as well as organizations’ policies, procedures, and practices for effective and
efficient management of USAID/Pakistan resources. To date, USAID has completed 198 preaward
assessments.

USAID has also sponsored 47 institutional capacity-building activities and initiated 77 others, while
completing 4 research studies on streamlining project management units. Under the Lahore University
of Management Sciences (LUMS) component of the Assessment and Strengthening Program, 28 training
sessions have been completed on courses of study developed under the program. The courses are
designed for government, civil society, and local private sector participants at all levels. LUMS offers
participating organizations studies on financial management, procurement management, human
resources and administrative management, and monitoring and evaluation. The mission is also working
with the Office of the Auditor General (Pakistan’s Supreme Audit Institution) to strengthen its capacity
to provide audits required under government-to-government agreements.




                                                                                                       58
Staffing
The U.S. Mission in Pakistan—including USAID and Embassy components—increased its staff size in
Islamabad and Peshawar but maintained its staff size at regional offices in Lahore and Karachi.

As shown in Table 13, USAID reported a total of 238 staff (54 U.S. direct hires and 184 others) as of
September 30, 2012. USAID mission management was unable to fill all vacancies during the quarter
because of limited availability of office facilities. USAID’s temporary office building has been completed
and the mission moved into the facility in late August 2012. Now that additional offices space is available
to the mission, USAID plans to expand recruitment to fulfill its responsibilities without relying on
temporary-duty employees or on support from Washington, D.C. With an FY 2012 target of 296 staff,
USAID/Pakistan remained understaffed by 58 positions.

                        Table 13. USAID Staffing in Pakistan as of September 30, 2012

                                                                                                     Change From
         Category             Islamabad    Peshawar*        Lahore      Karachi         Total
                                                                                                     June 30, 2012

    U.S. direct hires              46            4             3            1              54               +5

    U.S. personal services
                                   14            4             0            2              20                –
    contractors

    Third-country
                                   11            1             0            0              12               +2
    nationals

    Foreign Service
    Nationals                     112           21            10            6             149               +6
    (Pakistani staff)

    Eligible family
                                    2            0             0            0               2                -3
    members

    Long-term
                                    1            0             0            0               1                -1
    temporary-duty staff†

Total Staff                       186           30            13            9             238               +9

Staff Target 2012                                                                         296

Staff Shortfall                                                                            58

Source: USAID/Pakistan.

*      Includes staff members assigned to Peshawar but currently residing in Islamabad.
†
       Individuals in Pakistan for a year occupying vacant positions are counted toward total USAID/Pakistan positions.

                                                                                                                    59
PAS personnel in Pakistan work in offices in Islamabad, Karachi, Lahore, and Peshawar. In total, PAS had
27 U.S. direct hires and 53 Pakistani staff members as of September 30, 2012. As of that date, INL-
Pakistan had 10 U.S. direct hires, 3 U.S. personal services contractors, 6 third-party contractors, and 80
Pakistani staff; USDA had 3 permanent U.S. direct hires and 5 Pakistani staff members. At the end of the
reporting period, PRM had one U.S. direct hire, one eligible family member on staff as a personal
services contractor, and one locally engaged Pakistani employee. USIP has one employee based in
Pakistan.




                                                                                                       60
Risks and Mitigation Strategies
U.S. Government agencies and oversight entities have identified risks that could jeopardize the U.S.
Government’s assistance program in Pakistan and identified accompanying mitigation strategies. The
following challenges facing the civilian assistance program remained pertinent during this quarter:

   Political risks. Pakistan continued to experience political, economic, and security-related turmoil.
   Such instability limits progress by the Government of Pakistan and the U.S. Government in
   delivering an effective assistance program.

   Operating restrictions. Implementation and monitoring of U.S. Government-supported projects have
   been hindered by strict Government of Pakistan requirements for travel outside of Islamabad and
   provincial capitals. Visits to some areas require from several days’ to 3 weeks’ prior notification and
   sometimes the approval of the Ministry of Foreign Affairs; these restrictions delay and often lead to
   the cancellation of site visits. Obtaining visas and visa renewals continues to hamper recruitment
   and lower staff morale. Further, local authorities continue to harass U.S. Government and Embassy
   personnel, especially local staff members.

   Resistance to economic reform. Entrenched interests resist policy reforms needed to transform the
   economy. The effective governance, accountability, and financial solvency of power sector
   institutions are critical to economic reform. Political interference continues to undermine the
   decision-making ability of power company managers and regulatory officials. According to USAID, if
   Pakistan does not implement fundamental reforms, assistance from the United States and other
   donors will have limited long-term benefits.

   Vulnerability to natural disasters. Flood damage has delayed implementation of projects in affected
   areas. Because Pakistan is prone to natural disasters such as flooding, this is a regular risk. To help
   Pakistan address this risk, USAID supports programs in water storage and management, including
   the surface water management program for Balochistan and Gomal Zam Dam, which contribute to
   flood mitigation efforts. OFDA also has ongoing efforts to strengthen Pakistan’s ability to respond
   to disasters and reduce related risks.

   Leadership turnover. High staff and leadership turnover within the Government of Pakistan and the
   U.S. Government affects planning, coordination, and implementation of programs. Senior managers
   at power companies and senior government officials at the Ministry of Water and Power are usually
   political appointees who spend less than 2 years in their positions. The devolution of federal
   programs for health, education, and agriculture to provinces with insufficient guidance on the
   expected roles and responsibilities of the federal, provincial, and district governments has also
   complicated project implementation. High U.S. Government staff turnover also limits the efficiency
   and effectiveness of assistance programs.

                                                                                                       61
    Adverse environmental impact. Development projects sometimes have the potential to degrade the
    natural or physical environment. USAID/Pakistan conducts environmental assessments before
    disbursing funds for projects. These assessments—for example, of the road from Tank to Wana
    and Kaur to Makeen in South Waziristan—sometimes identify risks regarding the projects’ impact
    on the environment or communities. To address these environmental concerns, USAID takes steps
    to mitigate risks before continuing with project activities.

    Limited institutional capacity. In FATA, Khyber Pakhtunkhwa, Sindh, and Balochistan, where there is
    limited institutional capacity and insufficient staff with experience in financial and procurement
    management, extra effort is made to mitigate the risk of resources being lost through inefficiency,
    theft, or general lack of capacity to handle large amounts of funding.

    Inadequate financial management in Government of Pakistan institutions. The U.S. Government and the
    Government of Pakistan have collaborated to introduce special accounts for budget support
    provided by the United States to address financial challenges and maintain accountability. However,
    financial management, accountability, and reporting challenges continue. USAID is providing
    targeted financial management assistance to key Government of Pakistan institutions and
    collaborates with other donors on related matters through the Working Group on Public Financial
    Management.

    Security risks. Security concerns continue to reduce the ability of U.S. Government personnel to
    conduct direct monitoring and evaluation in conflict-affected areas, particularly Peshawar, FATA,
    Khyber Pakhtunkhwa, and Balochistan, and to engage Pakistani officials in project design. In March
    2012, a Balochistan Agriculture Project vehicle was attacked and two people associated with the
    project were killed and a third injured. In early August, eight local WAPDA staff members working
    on Gomal Zam Dam Project were kidnapped while traveling from the dam site to Dera Ismail Khan
    in South Waziristan. Negotiations are underway between the Khyber Pakhtunkhwa officials and the
    suspects to free those taken; however, in September, the killing of one of the eight staff members
    was confirmed by Pakistani authorities in the area. Project implementation continues in the face of
    these security threats.

As described above, security conditions present an ongoing challenge for civilians providing assistance in
certain vulnerable areas, as well as for the U.S. Government’s ability to monitor and evaluate programs.
USAID is meeting the challenge through an independent monitoring and evaluation contract. Services
provided under the contract include routine monitoring, training on data entry for project performance,
mapping using a geographic information system, and conducting evaluations and assessments. The
integrity of the data provided by USAID/Pakistan’s implementing partners, which serves as the basis for
annual performance reporting, is also verified under the contract. Additionally, USAID’s Office of
Afghanistan and Pakistan Affairs, in conjunction with USAID/Pakistan, has developed a database (PakInfo)
that includes indicators that USAID uses to measure the progress of its programs, as well as the
indicators that each implementing partner uses to track progress.



                                                                                                       62
This performance reporting takes place within a larger framework designed to ensure that broader U.S.
strategic and operational objectives are met. USAID mission achievement is measured against
performance indicators and targets identified in the mission results framework and performance
management plan. The results framework defines mission objectives and desired intermediate results in
each of the focus sectors for assistance to Pakistan, and the performance management plan provides
information on how the mission will collect data on and measure progress in these areas.

To reduce fiduciary risks, USAID has hired accounting firms to conduct preaward assessments to ensure
that potential recipients of USAID assistance meet U.S. transparency and accountability standards.
These assessments identify and document potential recipients’ weaknesses and areas for improvement.
USAID then actively works with partners to build capacity and mitigate risks. In addition, USAID
increasingly uses fixed-amount reimbursable agreements as a mechanism for assistance programs
implemented through Pakistani institutions. These agreements require milestones to be achieved and
independently verified before payments are processed.

USAID has also established an Assessment and Strengthening Program to build the institutional capacity
of local Pakistani organizations. The program helps identify, address, and validate responses to
institutional capacity weaknesses in public sector, civil society, and for-profit institutions. It enables
USAID/Pakistan to work with a wide range of local implementing partners and host-government
institutions in an effective, transparent, efficient, and responsive manner without having to resort to
one-off consultancies or rely on support arrangements provided on a project-by-project basis.

The capacity-building process focuses on specific organizational needs identified through preaward
assessments and on national development objectives and requirements. Efforts include developing
dedicated project management units in the government, improving policies and procedures, reviewing
and strengthening organizational structure, ensuring adequate internal controls, improving financial
management and procurement processes, increasing employee skills through on-the-job technical
assistance, and providing relevant tools and products for carrying out government functions.

In addition to these program strategies, the OIGs for USAID and DOS have taken the following steps to
ensure that U.S. Government funds are protected against waste and theft:

    Maintaining an in-country oversight presence. As of September 30, 2012, USAID OIG had
    14 permanent staff in Islamabad (9 U.S. direct hires and 5 Foreign Service National employees),
    supplemented by a staff member on temporary duty. To support its Pakistan portfolio, DOS OIG
    had one U.S. direct hire and one U.S. personal services contractor on staff in Islamab ad at the end of
    the reporting period. An additional DOS OIG U.S. direct-hire employee is scheduled to arrive in
    Pakistan in November 2012.

    Expanding the use of independent Pakistani public accounting firms to conduct financial audits of funds
    provided to Pakistani NGOs. As of September 30, 2012, USAID OIG had a roster of 28 eligible audit



                                                                                                        63
     firms in Pakistan to call on. Since the passage of the Enhanced Partnership with Pakistan Act on
     October 15, 2009, USAID OIG has nearly doubled the size of this roster.

     Providing training to Pakistani public accounting firms and to the Office of the Auditor General. USAID OIG
     training for Pakistani public accounting firms and the Office of the Auditor General covers the
     standards and requirements for financial audits of U.S. Government funds. In FY 2012, USAID OIG
     provided this training to 13 employees of the Office of the Auditor General and 55 participants from
     24 public accounting firms.

     Providing training to NGOs, government organizations, and USAID contracting and agreement officers’
     representatives and financial analysts. During FY 2012, USAID OIG provided training on the standards
     and requirements for financial audits of U.S. Government funds to 73 participants from NGOs, 13
     government officials, and 19 USAID staff members.

     Helping the Office of the Auditor General conduct financial audits. USAID OIG helps the office conduct
     financial audits of funds provided by USAID/Pakistan to Pakistani Government entities by providing
     support during the audit process. USAID OIG also reviews the final reports to ensure that the
     audits were performed in accordance with its Guidelines for Financial Audits Contracted by Foreign
     Recipients, dated February 2009.

     Working with Pakistan’s National Accountability Bureau. 11 USAID OIG established a working
     relationship with the National Accountability Bureau in early 2010 and continues to coordinate
     efforts and collaborate on investigations.

     Collaborating with USAID/Pakistan to establish and maintain the Anti-Fraud Hotline in Pakistan. As the
     only one of its kind in Pakistan, the hotline provides a unique and useful tool for Pakistani citizens to
     provide feedback to USAID, its implementing partners, and the Government of Pakistan. This
     quarter, the hotline received 395 complaints through various channels—e-mail, Internet, facsimile,
     mail, and in person. These complaints relate to projects funded by USAID, the Pakistani
     Government, and international organizations.

     Providing fraud awareness briefings and expanding investigative coverage. USAID OIG investigators also
     conduct fraud awareness briefings to alert participants—employees, contractors, and grantees—to
     fraudulent practices and schemes and to provide guidance on how to report fraud. During the
     quarter, OIG special agents in Pakistan conducted three fraud awareness briefings for 26 attendees.




11
   The National Accountability Bureau is the primary law enforcement agency in Pakistan responsible for
investigating white-collar crime and public corruption. It is Pakistan’s only law enforcement agency authorized to
conduct investigations in FATA.


                                                                                                               64
Coordinating audits and investigations with other U.S. agencies. USAID OIG coordinates audit and
investigative work with other OIGs, GAO, and law enforcement agencies including the Federal
Bureau of Investigation’s International Corruption Unit, the National Procurement Task Force, the
Financial Crimes Enforcement Network, and the U.S. Embassy’s Legal Attaché Office to eliminate
duplication and maximize efficient use of government resources.




                                                                                              65
Oversight Status
Because U.S. civilian assistance programs and activities in Pakistan are implemented by several agencies,
more than one oversight organization has the authority to conduct related audits, reviews, inspections,
and investigations. The OIGs for DOD, DOS, USAID, and USDA, as well as GAO, reported that they
had completed Pakistan-related work during the quarter; the OIGs for DOC, the Department of
Homeland Security, and the Department of Justice reported that they did not undertake any oversight
activities specific to Pakistan during the reporting period and had no planned audit work pertaining to
Pakistan.


Department of Defense Office of Inspector General

Work Completed

From July 1 to September 30, 2012, DOD OIG completed one performance audit related to assistance
to Pakistan:

    Mi-17 Overhauls Had Significant Cost Overruns and Schedule Delays (Report No.
    DODIG-2012-135, September 27, 2012). This audit determined whether the oversight and
    management of Northrop Grumman contracts for 1,500-hour maintenance overhauls of Mi-17
    aircraft were performed in accordance with federal requirements and whether contracting officers
    ensured that contract prices were fair and reasonable. Eight Mi-17 helicopters belonging to Pakistan
    were included in the contracts. OIG found that Army contracting officers and program
    management officials did not adequately support the prime contractor when the subcontractor
    denied quality assurance personnel access to its overhaul facility. As a result, overhauls took 12 to
    20 months longer than planned, failed to identify unsanctioned parts used in the overhauls that had
    to be replaced, and may cost the U.S. Government $16.4 million in unnecessary costs. Because of
    the delays, eight aircraft were unavailable for rescue and recovery operations during the 2010 floods
    in Pakistan. Those eight aircraft have since been overhauled and returned to Pakistan. DOD OIG
    recommended that the U.S. Army debarment official consider whether suspension or debarment is
    warranted for the subcontractor and its affiliates and that Army officials review the actions of the
    contracting officers and program management officials to determine whether administrative actions
    should be taken.

Work Under Way

As of September 30, 2012, DOD OIG had one audit under way related to U.S. assistance to Pakistan:

    Audit of Mi-17 Overhauls and Cockpit Modifications. This audit is being conducted to
    determine whether DOD officials awarded and administered Science and Engineering Services Inc.

                                                                                                      66
   contracts for the overhaul and modification of Mi-17 aircraft in accordance with U.S. Government
   and DOD regulations and policies. Five Pakistani helicopters were included in the contracts;
   however, a stop-work order was issued for this effort before Pakistan delivered the helicopters for
   overhaul and the overhaul effort for the Pakistan aircraft on this contract has been canceled.
   Accordingly, OIG will not report on the progress of this audit in future quarterly reports on
   oversight of U.S. assistance to Pakistan.


Department of State Office of Inspector General

Work Completed

From July 1 to September 30, 2012, DOS OIG completed one evaluation and one inspection related to
Pakistan:

   Evaluation of the Local Guard Force Contract for Embassy Islamabad and Consulates
   General Karachi, Lahore, and Peshawar (Report No. AUD-MERO-12-46, September
   2012). DOS OIG evaluated DOS’s local guard force contract with security contractor G4S for
   guard force services at Embassy Islamabad and the three U.S. consulates in Pakistan. DOS OIG
   determined that the U.S. Mission’s local guard force contractor did not provide DOS-approved
   replacement guards during a labor strike in Islamabad in June 2011. The contractor used
   unapproved guards to cover guard posts during the strike because it did not have a contingency plan
   to replace the striking guards. OIG also found that the contractor did not enroll all of its guards in
   the Employees’ Old-Age Benefits Institution, a Pakistani retirement program, as required under its
   contract. In addition, OIG concluded that DOS did not provide the oversight necessary to ensure
   that the contractor provided adequate training in some required skills. However, OIG did not
   identify any errors during its review of contractor invoices and concluded that DOS had properly
   functioning internal controls to help ensure that invoices were accurate and supported with
   appropriate documentation.

   OIG made one recommendation to improve program management reviews of local guard force
   contracts. OIG made an additional recommendation to ensure guard enrollment in the Pakistani
   retirement program and the proper crediting of amounts already withheld from guard salaries for
   the retirement program.

   Support for Department Employees Serving in Afghanistan, Iraq, and Pakistan (Report
   No. ISP-I-12-49, September 30, 2012). OIG considered the treatment of families of employees
   serving in Afghanistan, Iraq, and Pakistan and examined information provided to employees bidding
   on these posts. OIG inspectors found that DOS had not provided clear guidance to these missions
   on support for safe-havened families and noted that these families were not treated uniformly as a
   result. OIG also observed that, although bidders on assignments in these countries ultimately
   receive excellent guidance on support for family members, this information is not provided early


                                                                                                      67
   enough in the bidding process to enable employees and their family members to properly weigh
   their options.

Work Under Way

As of September 30, 2012, DOS OIG had two audits under way:

   Audit of the Administration and Oversight of the Pakistan National Police Training and
   Mentoring Program. This audit will evaluate whether INL is efficiently and effectively managing
   the Pakistan Law Enforcement Reform Program and determine whether the bureau is achieving
   intended and sustainable results through each component of the program.

   Performance Evaluation of Management Controls Over Civilian Assistance to Pakistan.
   This evaluation will review DOS’s civilian assistance to Pakistan (excluding USAID programs) to
   determine whether management controls are in place, documented, and operating as intended and
   to ensure that DOS-administered funds are protected from waste, fraud, and diversion.

Work Planned

In addition to those under way, DOS OIG plans to conduct one evaluation and two audits of Pakistan -
related programs and activities in FY 2013:

   Evaluation of the Emergency Action Plan for Embassy Islamabad. The evaluation will
   focus on Embassy Islamabad’s formulation of a comprehensive Emergency Action Plan, the
   completeness of associated documentation, and the general knowledge and preparedness of all
   mission personnel.

   Audit of the Administration and Oversight of the Pakistan Counterinsurgency
   Capability Fund. This audit will determine whether the DOS’s administration and oversight of the
   Pakistan Counterinsurgency Capability Fund are effective.

   Audit of the Bureau of International Narcotics and Law Enforcement Affairs Judicial
   Reform Programs in Pakistan. This audit will determine whether INL’s administration and
   oversight of its judicial reform programs in Pakistan are effective and whether the programs are
   achieving stated program objectives.

Investigative Work

DOS OIG opened one new case in Pakistan during the reporting period. OIG did not close any cases
during the quarter.



                                                                                                 68
USAID Office of Inspector General

USAID OIG oversees foreign assistance programs administered by USAID, the Millennium Challenge
Corporation, the U.S. African Development Foundation, and the Inter-American Foundation. USAID
OIG has strengthened its focus on Pakistan since USAID reopened its Pakistan mission in 2002. In
recent years, OIG has covered a wide array of USAID programs in Pakistan, for relief and stabilization,
reconstruction, sustainable development, education, and health care. USAID OIG’s oversight activities
include performance audits and reviews, financial audits, and investigations.

Since the start of FY 2010, USAID OIG has issued 40 Pakistan-based financial audits and forensic reports
and 20 performance audits and reviews of Pakistan-related assistance efforts. These reports have made
126 recommendations for improvements to USAID programs and activities. Performance audits
conducted since FY 2010 have noted the need for improvements in a range of management and
performance areas. Half of OIG performance audits have identified contract or project management
deficiencies, more than four in ten have found internal control weaknesses, and more than a third have
noted noncompliance with relevant procedures or regulations. Financial audits overseen by OIG since
FY 2010 have covered $422.3 million in expenditures. OIG audits during this period have identified
approximately $23.7 million in sustained questioned costs and funds to be put to better use.

Work Completed

From July 1 to September 30, 2012, USAID OIG completed three performance audits, six financial
audits, one agreed-upon forensic procedures report:

   Audit of USAID/Pakistan's Reconstruction Program in Earthquake-Affected Areas
   (Report No. G-391-12-007-P, August 16, 2012). USAID/Pakistan awarded a 5-year,
   $120 million contract to the construction firm Camp Dresser and McKee, International Inc. to
   implement this program, and reconstruction activities have made progress. As of May 2012, the
   contractor had completed work on 51 of the 77 targeted facilities (36 schools and 15 health-care
   facilities) and turned them over to the Government of Pakistan. Government officials inspected the
   completed buildings to verify that they met technical specifications and issued certificates
   transferring ownership. The contractor turned the facilities over to the Government of Pakistan
   within the estimated time and budget, and the government was using most for their intended
   purposes. Construction was under way on 21 buildings (20 schools and a district hospital), and the
   contractor was bidding on sites for 5 additional structures.

   However, several problems needed to be addressed. OIG observed that a two-story health-care
   facility built by the implementer was not in use and had deteriorated without maintenance. OIG
   noted damage to the roof tiles, a high-voltage electrical cable running across the roof of the building,
   a broken window, no running water or electricity, and mold on the interior walls. According to the
   contractor, the Government of Pakistan had not occupied the new facility because it did not want to
   abandon an old facility that was the subject of a land dispute. As a result, local residents could not

                                                                                                        69
use the new facility for which USAID/Pakistan had spent $864,000. During site visits, OIG also
noted damaged roof tiles at many other completed facilities. Contractor representatives said that
damaged roof tiles would be replaced with better tiles at no cost to USAID. The audit made four
recommendations.

Audit of USAID/Pakistan's Gomal Zam Multipurpose Dam Project (Report No. G-391-
12-008-P, August 24, 2012). In January 2011, USAID/Pakistan entered into a fixed-amount
reimbursement agreement with Pakistan’s Water and Power Development Authority by which
USAID reimburses WAPDA for expenses only after agreed-upon milestones have been certified by
monitoring firms hired by USAID. USAID agreed to provide $40 million to the Authority to
complete the Gomal Zam Dam, which was 88 percent complete at the time. In October 2011,
USAID/Pakistan amended the agreement to include an additional $40 million to fund an irrigation
component of the project, which was then 23 percent complete and included a main canal,
distributaries, a barrage, and floodwater channels. As of July 2012, USAID/Pakistan had obligated
approximately $80 million and spent $55 million for the project.

The main objectives of the project are to help the Government of Pakistan (1) meet more demand
for electricity by adding power to the national power grid, (2) store water to provide a reliable
source for irrigation, and (3) provide for flood control. When complete, the project is expected to
use the water resources of the Gomal and Zhob Rivers to provide electricity to 25,000 households,
irrigate 163,000 acres of land to support economic activity, and control flooding.

The audit confirmed that USAID’s timely funding of Gomal Zam Multipurpose Dam was contributing
to achieving the project goals of power generation, irrigation, and flood control. The dam was
98 percent complete and the irrigation component was 45 percent complete and on schedule.
During the audit, OIG visited the dam site and the areas that benefit from the irrigation system.
OIG noted that the southern districts of Khyber Pakhtunkhwa need water and energy, and that
construction of the dam and the irrigation system should help meet these needs. In addition, OIG
learned from local stakeholders that the dam construction helped mitigate flood damage in 2011.
Notwithstanding this progress, completion of the dam was at least 3 months behind schedule
because of delays in the assembly of a key component and a payment dispute between the project
implementer and its subcontractor. These delays have cost an estimated $10.55 million in labor,
engineering, and security fees. The report made one recommendation to help ensure timely
completion of the dam.

Audit of USAID/Pakistan’s Assessment and Strengthening Program (Report No. G-391-
12-009-P, September 30, 2012). USAID/Pakistan launched the Assessment and Strengthening
Program in October 2010 to (1) assist potential Pakistani partners in increasing their capacity to
manage and account for U.S. Government development assistance funds, (2) reduce the vulnerability
of funds to waste and misuse, and (3) increase the speed and efficiency of delivering USAID
development resources to intended beneficiaries. To achieve the program’s goals, the mission
awarded separate cooperative agreements to the Rural Support Programmes Network, LUMS, and
Associates in Development totaling $44 million for the period from October 2010 to October
                                                                                                70
2015. As of May 31, 2012, cumulative obligations under the program had reached approximately
$13.4 million, and disbursements totaled $5.3 million.

Between October 2010 and May 2012, the program initiated 38 institutional capacity-building
programs, completed 5 preaward assessments, and carried out capacity-building activities. Activities
for the governmental organizations included establishing planning documents, developing policies and
procedures manuals, providing training classes to 278 participants, and completing a research
project.

Despite these accomplishments, the program faced difficulties in increasing the capacity of local
organizations and the Government of Pakistan. By May 2012, implementers had not finished any of
the 46 programs planned for completion. In addition, program planning was insufficient. A results
framework and preliminary performance management plan were not established until a year after
the program began, and the USAID/Pakistan office managing the program lacked experience
designing, planning, and implementing programs that, like this one, seek to build capacity in areas
other than finance.

The report made three recommendations to address these issues.

Closeout Financial Audit of USAID Resources Managed by the Pakistan Poverty
Alleviation Fund, for the Period August 12, 2010, to June 30, 2011 (Report No. G-391-
12-014-R, July 10, 2012). The audit covered total revenues and costs of $3,950,666 and
$2,697,398, respectively. The audit concluded that, except for the effects of the questioned costs of
$1,146, the fund accountability statement presented fairly, in all material respects, program revenues
and costs incurred under the agreements for the period audited. The questioned costs pertained to
interest earned on a bank balance by a subrecipient that had not been refunded to USAID. The
audit was concluded without any recommendations because the identified ineligible questioned costs
had been raised in a previous audit (Report No. G-391-12-008-R).

Financial Audit of USAID Resources Managed by Khushhali Bank Limited, for the Year
Ended December 31, 2011 (Report No. G-391-12-015-R, July 12, 2012). The audit covered
total revenues and costs of $2,603,275 and $2,161,710, respectively, under the USAID agreement
managed by Khushhali Bank. The audit concluded that the fund accountability statement presented
fairly, in all material respects, program revenues and costs incurred under the agreements for the
period audited. The audit did not identify any material weakness in internal controls or any material
instance of noncompliance. The audit was concluded without any recommendations.

Closeout Financial Audit of the Pakistan Competitiveness Support Fund, Limited
Scope Grant Agreement No. 391-G-00-06-01073-00, Managed by the Competitiveness
Support Fund, for the Period July 1, 2011, to March 31, 2012 (Report No. G-391-12-016-
R, July 20, 2012). The audit covered total revenues and costs of $1,062,236 under the agreement.
The audit concluded that the fund accountability statement presented fairly, in all material respects,
program revenues and costs incurred under the agreement for the period audited. The audit did
                                                                                                   71
not question any costs and did not identify any material weakness in internal control. However, the
audit identified three material instances of noncompliance related to levels of financial contributions
on the part of program counterparts and the failure to hold required meetings . No
recommendations were made to address these issues because the program has ended. The audit
made one recommendation, however, to recover $9 million in cost-sharing shortfalls.

Closeout Financial Audit of The Aga Khan University’s Flood Response Program,
Agreement No. 391-G-00-10-01188-00, and National Nutrition Survey Supplement
Program, Grant No. 391-G-11-00001-00, Managed by The Aga Khan University, for the
Period January 1, 2011, to February 29, 2012 (Report No. G-391-12-017-R,
September 13, 2012). The audit covered combined program revenues and expenditures of
$5,667,991 and $5,139,351, respectively. The audit concluded that the fund accountability
statement for the programs presented fairly, in all material respects, program revenues and costs
incurred under the agreements for the period audited. The audit did not identify any questioned
costs, material weaknesses in internal controls, or material instances of noncompliance. No
recommendations were made.

Financial Audit of USAID Funds Managed by the Higher Education Commission Under
the Merit and Needs-Based Scholarship Program, USAID Activity No. 391-G-00-04-
01023-00, for the Year Ended June 30, 2011 (Report No. G-391-12-018-R,
September 25, 2012). The audit, which covered revenues and costs of $1,195,129 and
$1,029,213, respectively, found that the fund accountability statement presented fairly, in all material
respects, program revenues and costs incurred for the period audited. Auditors did not question
any costs, but did question the validity of the equivalent of $1,326,000 in cost sharing claimed by the
recipient. In addition, auditors identified 13 material instances of noncompliance with the agreement
and related policies and procedures. OIG made two recommendations to address these issues.

Financial Audit of the Emergency Relief and Early Recovery for Flood Affectees Across
Pakistan Program, Agreement No. 391-A-00-11-01204-00, Managed by the Rural
Support Programmes Network, for the Period October 15, 2010, to June 30, 2011.
(Report No. G-391-12-019-R, September 26, 2012). The audit covered revenues and costs of
$8,089,284 and $7,965,014 respectively, under the USAID agreement. Auditors questioned
$2,664,903 in costs pertaining to a subrecipient that was not audited as required and concluded that,
with the exception of the effects of these questioned costs, the fund accountability statement
presented fairly, in all material respects, program revenues and costs. Auditors identified an
additional $2,511 in questioned costs pertaining to interest earned on bank balances that was not
refunded to USAID. OIG made two related recommendations.

Report on Agreed-Upon Forensic Procedures Performed on Procurement Costs
Incurred by Rafi Peer Theatre Workshop to Implement the Pakistan Children’s
Television Project, Agreement No. 391-A-00-10-01161-00, for the Period May 7, 2010,
to May 31, 2012 (Report No. G-391-12-001-O, July 31, 2012). This report covered
procurement costs of $2,675,275 and identified questioned costs of $2,030,417. These costs were
                                                                                             72
   questioned because proper authorizations and documentation were not available or because related
   procurements were not made in a competitive fashion. The report identified several weaknesses in
   internal controls and instances of noncompliance and noted instances of potentially fraudulent
   transactions. One recommendation was made to determine the allowability and recover, as
   appropriate, the unsupported questioned costs. However, no procedural recommendations were
   made because the project was being terminated.

Work Under Way

As of September 30, 2012, USAID OIG had 2 performance audits, 17 financial audits, and 1 agreed-upon
procedures engagement in progress:

   Audit of USAID/Pakistan’s Monitoring and Evaluation Program. The audit will determine
   whether USAID/Pakistan is using results from its monitoring and evaluation program to manage its
   portfolio.

   Audit of USAID/Pakistan’s Design for Sustainability in the Jamshoro Thermal Power
   Station Repair and Maintenance Activity. This audit will determine whether USAID/Pakistan
   has built sustainability into the repair and maintenance of the Jamshoro Thermal Power Station.

   Financial Audit of USAID Funds Managed by the Ministry of Economic Affairs and
   Statistics (Economic Affairs Division) Under the Cash Transfer Grant Agreement,
   Activity No. 391-012-IL-03 for University and Technical Education in FATA Through the
   Pakistan Higher Education Commission, for the Period September 30, 2009, to June 30,
   2010.

   Financial Audit of USAID Funds Managed by the Water and Power Development
   Authority Under Agreement No. 391-TDR-FARA-002-00 for the Year Ended June 30,
   2011.

   Financial Audit of USAID Funds Managed by the Water and Power Development
   Authority Under Agreement No. 391-PEPA-ENR-GOMAL-PIL-001, for the Year Ended
   June 30, 2011.

   Financial Audit of USAID Funds Managed by the Water and Power Development
   Authority Under Agreement No. 391-PEPA-ENR-SATPARA-PIL-001, for the Year
   Ended June 30, 2011.

   Financial Audit of USAID Funds Managed by Jamshoro Power Company Limited Under
   Agreement No. 391-JAM-FARA-003-00, for the Year Ended June 30, 2011.



                                                                                                 73
Financial Audit of USAID Funds Managed by Northern Power Generation Company
Limited Under Agreement No. 391-MUZ-FARA-004-00, for the Year Ended June 30,
2011.

Financial Audit of USAID Funds Managed by the Provincial Reconstruction and
Rehabilitation and Settlement Authority Under Agreement Nos. 391-MLK-FARA-001-
00 and 391-MLK-FARA-002-00 for the Reconstruction of Schools, for the Period April 9,
2010, to June 30, 2011.

Financial Audit of USAID Funds Managed by the Ministry of Economic Affairs and
Statistics (Economic Affairs Division) Under the Assistance Agreement, Activity
No. 391-011 for Implementation of Assistance Programs for the Population of Conflict-
Affected Areas, Managed by the Provincial Disaster Management Authority, for the
Year Ended June 30, 2011.

Financial Audit of USAID Funds Managed by the FATA Secretariat Under Agreement
No. 391-SWA-FARA-001-00 for the Widening and Improvement of the Jandola-Kotkai-
Sararogha Road, for the Year Ended June 30, 2011.

Financial Audit of USAID Funds Managed by the FATA Secretariat Under Agreement
No. 391-AAG-011-SWA-TANK for the Tank-Kaur and Kaur-Jandola Road, for the Year
Ended June 30, 2011.

Financial Audit of USAID Funds Managed by the FATA Secretariat Under Agreement
No. 391-013-002 for the Kaur-Gomal-Tanai-Wana Road, for the Year Ended June 30,
2011.

Financial Audit of USAID Funds Managed by the FATA Secretariat Under Agreement
No. 391-013-001 for the Reactivation and Rehabilitation of Damaged Transformers, 33-
Kilovolt High-Tension and 11-Kilovolt Low-Tension Lines, for the Period March 10 to
June 30, 2011.

Financial Audit of the Assessment and Strengthening Program for Civil Society
Organizations and the Government of Pakistan, Agreement No. 391-A-00-11-01201-00,
Managed by the Rural Support Programmes Network, for the Period October 12, 2010,
to June 30, 2011.

Closeout Financial Audit of the Emergency Relief Items to Communities Affected by
Floods in Pakistan Program, Agreement No. 391-A-00-10-01187-00, Managed by the
Rural Support Programmes Network, for the Period August 13, 2010, to June 30, 2011.



                                                                                  74
    Financial Audit of the Government of Pakistan’s Receipts and Disbursements of Special
    Rupee Accounts Under USAID-Funded Agreements.

    Financial Audit of USAID Resources Managed by the Rural Support Programmes
    Network as a Subrecipient of the Population Council Under the Family Advancement
    for Life and Health Program, Agreement No. 391-A-00-07-01092-00, for the Year
    Ended June 30, 2011.

    Financial Audit of USAID Resources Managed by the Rural Support Programmes
    Network as a Subrecipient of the National Rural Support Programme Under the Small
    Grants and Ambassador's Fund Program, Contract No. 391-C-00-10-01189-00, for the
    Period August 31, 2010, to June 30, 2011.

    Agreed Upon Procedures Review of USAID Resources Managed by the Rural Support
    Programs Network Under Agreement No. 391-A-00-11-01213-00 for the Sindh
    Agricultural Recovery Project, for the Period November 13, 2010, to July 31, 2011.

Work Planned

USAID OIG was finalizing its plans for FY 2013 oversight activities at the end of the reporting period.

Investigative Work and the Anti-Fraud Hotline

As of September 30, 2012, USAID OIG had 27 open investigations pertaining to Pakistan. During the
reporting period, OIG investigators closed two cases.

The following significant USAID OIG investigative developments took place between July 1 and
September 30, 2012:

    OIG Investigation Leads to Suspension of NGO and Proposed Debarment of Senior
    NGO Executive. A previously reported OIG investigation related to the $50 million Small Grants
    and Ambassador’s Fund Program revealed that an employee of the program implementer (NRSP)
    accepted a bribe from a grant recipient (the Khushal Welfare Organization) in exchange for a
    favorable grant closeout report. NRSP terminated its implicated employee in April 2012. In
    response to an OIG referral, in September 2012 USAID suspended the Khushal Welfare
    Organization from receiving future federal awards and proposed one of its senior executives for
    debarment.

    Two Local National Embassy Housing Office Employees Terminated for Soliciting and
    Receiving Kickbacks. USAID and State Department OIG conducted a joint investigation into
    allegations of fraudulent activity in Embassy Islamabad’s Housing Office. The investigation confirmed
    allegations of misconduct, solicitation, and acceptance of bribes from property owners by two local

                                                                                                      75
    Housing Office employees in exchange for favorable lease terms. Both employees were terminated
    in July 2012. In September 2012, the case was referred to Pakistan’s National Accountability Bureau
    to pursue local prosecution.

    Three Provincial Education Officials Terminated for Theft of Food Items. In April 2012,
    community members from northern Sindh Province contacted the Anti-Fraud Hotline to report
    theft and diversion of cooking oil and high energy biscuits from a school-based food-for-education
    program implemented by WFP. OIG subsequently referred the matter to the WFP Beneficiary
    Feedback team, which conducted an inquiry into the allegations. The inquiry found large amounts of
    these food items in the local market and substantiated allegations that three school employees sold
    food items designated for the program to local vendors. After the matter was referred to the Sindh
    Department of Education, all three employees were terminated.

Outreach. During the reporting period, USAID OIG conducted three fraud awareness briefings for 26
participants. OIG outreach efforts targeted organizations implementing the $155 million Sindh Basic
Education Program. OIG personnel conducted site visits and provided fraud awareness presentations to
implementer staff. OIG also continued to monitor the implementation of the government-to-
government portion of the project, which will be executed by the Sindh Department of Education in
accordance with the Sindh Public Procurement Rules of 2010. The Department of Education agreed to
include contact information for the Anti-Fraud Hotline on all tenders for construction projects funded
by the Sindh Basic Education Program so that bidders and members of the public will know how to
report inappropriate activity in the bidding process.

Anti-Fraud Hotline. During the reporting period, USAID OIG also continued to work closely with
the hotline to vet and investigate incoming complaints. This quarter, the hotline received 395
complaints.

As has been the case in previous quarters, most hotline complaints originated from Sindh Province in
southeastern Pakistan. During this quarter, total complaints were distributed across Pakistan’s regions
as follows: Sindh 285 (72 percent), Punjab 41 (10 percent), Balochistan 23 (6 percent), Khyber
Pakhtunkhwa 16 (4 percent), and FATA 16 (4 percent). Other provinces and administrative areas in
Pakistan combined to account for 4 percent of complaints.

As shown in the following graphic, about half of complaints received during the reporting period related
to service delivery.




                                                                                                     76
                         Distribution of Hotline Complaints by Type


                                           18%

                   26%                                         Solicitation of Bribe, Kickback, or Favor

                                                    5%         Theft
                                                    1%         Procurement Fraud or Rules Violation
                                                               Problem With Service Delivery
                                                               Other

                               50%


              Source: Transparency International – Pakistan.


Since its introduction in February 2011, the Anti-Fraud Hotline has been widely advertised on television,
radio, newspaper, and billboards. As the only one of its kind in Pakistan, the hotline has received a large
volume of complaints related to programs implemented by other agencies. USAID OIG refers these
complaints to the appropriate agency for further review and investigation. From July 1 to September 30,
2012, OIG referred 80 hotline complaints to outside entities, including WFP, UNICEF, the UN
Development Programme, the UN Office for Project Services, the World Bank, Pakistan’s BISP, Save the
Children, and NRSP.


U.S. Department of Agriculture Office of Inspector General

Work Completed

From July 1 to September 30, 2012, USDA OIG completed one audit related to civilian assistance to
Pakistan:

    Audit of Section 632(a) Transfer of Funds From the U.S. Agency for International
    Development to the U.S. Department of Agriculture for Pakistan (Report No. 50601-
    0001-16, September 27, 2012). In support of the U.S. Government’s objective to help the
    Pakistani people overcome political, economic, and security challenges, USDA is workin g with the
    Government of Pakistan to increase agricultural productivity, improve its capacity to provide
    agricultural services, and help improve rural livelihoods. In 2010 and 2011, USAID transferred a
    total of $39 million to USDA’s Foreign Agricultural Service to build Pakistan’s capacity for marketing
    and productivity in the agriculture sector. To assess USDA agencies’ controls to monitor and
    provide oversight of USAID-transferred funds, OIG reviewed three priority projects that received
    $25 million. Because these projects were just being implemented at the time of the review, OIG
                                                                                                           77
   was only able to examine the $10.9 million that had been spent as of May 2012. OIG auditors
   confirmed that these funds were used properly, but were unable to verify whether all obligated
   funds were expensed and used in accordance with agreements between USAID and USDA. OIG
   noted that USDA is taking steps to establish controls to monitor and provide oversight of capacity-
   building projects in Pakistan, but has not yet implemented the relevant processes and procedures.
   For that reason, OIG was unable to fully assess the adequacy of monitoring and oversight controls.
   Accordingly, OIG did not make any recommendations.


Government Accountability Office

GAO continues to assist congressional clients by conducting increased oversight of U.S. efforts in
Pakistan. GAO completed one Pakistan-related engagement during this reporting period and had
another ongoing engagement at quarter’s end. GAO’s plans for additional Pakistan-related work are
subject to congressional interests and requests.

Work Completed

From July 1 to September 30, 2012, GAO completed one engagement concerning Pakistan.

   Counterterrorism: U.S. Agencies Face Challenges Countering the Use of Improvised
   Explosive Devices in the Afghanistan/Pakistan Region (GAO-12-907T, July 12, 2012).
   Several U.S. agencies and international partners are engaged in efforts to assist Pakistan in
   countering IEDs but face challenges such as delays in obtaining visas and in the delivery of
   equipment. The U.S. FY 2013 Mission Strategic and Resource Plan for Pakistan includes a new
   performance indicator to track some of Pakistan’s efforts to counter IEDs, but the indicator and
   targets used to measure progress do not cover the full range of U.S.-assisted efforts. To improve
   DOS’s ability to track the progress of efforts in Pakistan to counter IEDs, GAO recommended that
   the Secretary of State direct the U.S. Mission in Pakistan to enhance its counter-IED performance
   measures to cover the full range of U.S.-assisted efforts. DOS committed to look for ways to
   broaden the scope of existing metrics to better reflect and evaluate interagency participation in
   counter-IED efforts.

Work Under Way

As of September 30, 2012, GAO had one ongoing engagement concerning Pakistan:

   Pakistan Visa Delays. Since FY 2002, Pakistan has received in excess of $25 billion in U.S.
   funding, including training provided to Pakistani officials. Much of this training is provided by U.S.
   officials; however, GAO has previously found that U.S. officials report encountering delays in
   obtaining visas to travel to Pakistan. GAO is (1) evaluating the extent to which U.S. officials
   experience delays in obtaining visas to travel to Pakistan and the causes of potential delays ,
   (2) determining the effects of delays, if any, on the delivery of U.S. assistance and training programs,

                                                                                                        78
and (3) examining steps taken by U.S. agencies to address potential delays and their effects. GAO
expects to complete this engagement in the spring of 2013.




                                                                                              79
Completed Oversight Reports as of September 30, 2012

Table 14 lists oversight reports completed since the passage of the Enhanced Partnership with Pakistan
Act, October 15, 2009.

             Table 14. Oversight Reports Completed as of September 30, 2012

 Agency      Report Number       Report Date                            Report Title

FY 2012 Reports

                                                Evaluation of the Local Guard Force Contract for Embassy
DOS          AUD-MERO-12-46        09/30/12     Islamabad and Consulates General Karachi, Lahore, and
                                                Peshawar

                                                Support for Department Employees Serving in Afghanistan,
DOS          ISP-I-12-49           09/30/12
                                                Iraq, and Pakistan

                                                Audit of USAID/Pakistan’s Assessment and Strengthening
USAID        G-391-12-009-P        09/30/12
                                                Program

                                                Mi-17 Overhauls Had Significant Cost Overruns and Schedule
DOD          DODIG-2012-135        09/27/12
                                                Delays

                                                Section 632(a) Transfer of Funds for Pakistan from USAID to
USDA         50601-0001-16         09/27/12
                                                USDA

                                                Financial Audit of the Emergency Relief and Early Recovery
                                                for Flood Affectees Across Pakistan Program Managed by the
USAID        G-391-12-019-R        09/26/12
                                                Rural Support Programmes Network, for the Period
                                                October 15, 2010, to June 30, 2011

                                                Financial Audit of USAID Funds Managed by the Higher
USAID        G-391-12-018-R        09/25/12     Education Commission Under the Merit and Needs-Based
                                                Scholarship Program, for the Year Ended June 30, 2011

                                                Closeout Financial Audit of the Aga Khan University’s Flood
USAID        G-391-12-017-R        09/13/12     Response Program and National Nutrition Survey Supplement
                                                Program, for the Period January 1, 2011, to February 29, 2012

                                                Audit of USAID/Pakistan's Gomal Zam Multipurpose Dam
USAID        G-391-12-008-P        08/24/12
                                                Project

                                                Audit of USAID/Pakistan's Reconstruction Program in
USAID        G-391-12-007-P        08/16/12
                                                Earthquake-Affected Areas

                                                Report on Agreed-Upon Forensic Procedures Performed on
                                                Procurement Costs Incurred by Rafi Peer Theatre Workshop
USAID        G-391-12-001-O        07/31/12
                                                to Implement the Pakistan Children Television Project, for the
                                                Period May 7, 2010, to May 31, 2012

                                                                                                          80
 Agency   Report Number    Report Date                          Report Title

                                         Closeout Financial Audit of the Pakistan Competitiveness
USAID     G-391-12-016-R    07/20/12
                                         Support Fund for the Period July 1, 2011, to March 31, 2011

                                         U.S. Agencies Face Challenges Countering the Use of
GAO       GAO-12-907-T      07/12/12     Improvised Explosive Devices in the Afghanistan/Pakistan
                                         Region

                                         Financial Audit of USAID Resources Managed by Khushhali
USAID     G-391-12-015-R    07/12/12
                                         Bank Limited, for the Year Ended December 31, 2011

                                         Closeout Financial Audit of USAID Resources Managed by the
USAID     G-391-12-014-R    07/10/12     Pakistan Poverty Alleviation Fund, for the Period August 12,
                                         2010, to June 30, 2011

                                         Review of USAID/Pakistan’s Cost Estimates for Shipping and
USAID     G-391-12-001-S    06/18/12
                                         Storage

                                         Financial Audit of the Gender Equity Program Managed by the
USAID     G-391-12-013-R    06/12/12     Aurat Publication and Information Service Foundation, for the
                                         Period August 15, 2010, to June 30, 2011

                                         Quality Control Review of the Audit Report and Audit
                                         Documentation for the Financial Audit Conducted by Ernst &
                                         Young Ford Rhodes Sidat Hyder of the Gender Equity
USAID     G-391-12-003-Q    06/12/12
                                         Program, Managed by Aurat Publication and Information
                                         Service Foundation, for the Period August 15, 2010, to
                                         June 30, 2011

                                         Compliance Followup Review of Embassy Islamabad and
DOS       ISP-C-12-28A      05/24/12
                                         Constituent Posts, Pakistan

                                         Audit of USAID/Pakistan’s Support to the Benazir Income
USAID     G-391-12-006-P    05/21/12
                                         Support Program


          GAO-12-614                     State Should Enhance Its Performance Measures for Assessing
GAO                         05/15/12
                                         Efforts in Pakistan to Counter Improvised Explosive Devices

                                         Financial Audit of the USAID/Pakistan Grant Agreement
USAID     G-391-12-012-R    05/10/12     Managed by the Health Service Academy, for the Period
                                         July 1, 2010, to June 30, 2011

                                         Evaluation of the Antiterrorism Assistance Program for
DOS       AUD/MERO-12-29    04/30/12     Countries Under the Bureaus of Near Eastern Affairs and
                                         South and Central Asian Affairs




                                                                                                    81
 Agency   Report Number    Report Date                           Report Title

                                         Financial Audit of Projects Managed by Lahore University of
                                         Management Sciences: the Foreign Recipient Contracted
USAID     G-391-12-011-R    04/24/12     Assessment and Strengthening Program and Subrecipient
                                         Contracted Merit and Needs-Based Scholarship Program, for
                                         the Year Ended June 30, 2011

USAID     G-391-12-005-P    04/20/12     Audit of USAID/Pakistan’s Entrepreneurs Project

                                         Financial Audit of the Pakistan Children’s Television Project
USAID     G-391-12-010-R    04/17/12     Managed by the Rafi Peer Theatre Workshop, for the Period
                                         May 7, 2010, to June 30, 2011

                                         Financial Audit of the Monitoring and Evaluation Project and
                                         Assessment and Strengthening Program Managed by
USAID     G-391-12-009-R    04/17/12
                                         Associates in Development (Private) Limited, for the Period
                                         January 1, 2010, to June 30, 2011

                                         Financial Audit of the USAID Resources Managed by National
USAID     G-391-12-008-R    04/03/12     Rural Support Programme (NRSP), for the Period July 1,
                                         2010, to June 30, 2011

                                         Quality Control Review of the Audit Report and Audit
                                         Documentation for the Financial Audit Conducted by Avais
                                         Hyder Liaqut Nauman of Anti-Corruption Program Pakistan
USAID     G-391-12-002-Q    04/03/12
                                         and the Anti-Fraud Hotline Program Managed by
                                         Transparency International – Pakistan, for the Year Ended
                                         June 30, 2011

                                         Financial Audit of USAID/Pakistan’s Rupee Trust Fund for the
USAID     G-391-12-001-N    03/20/12
                                         Period October 1, 2009, to September 30, 2011

                                         Audit of USAID/Pakistan’s Pre-Service Teacher Education
USAID     G-391-12-004-P    03/16/12
                                         Program

                                         Financial Audit of the Pakistan Competitiveness Support Fund
USAID     G-391-12-007-R    03/06/12
                                         for the Period July 1, 2010, to June 30, 2011

                                         Financial Audit of Budgetary Support Managed by the
USAID     G-391-12-006-R    02/24/12     Economic Affairs Division of the Government of Pakistan for
                                         the Period June 8, 2009, to June 15, 2011

                                         Quality Control Review of the Financial Audit Conducted by
                                         the Directorate General Audit, Federal Government,
                                         Department of the Auditor General of Pakistan, of the Merit
USAID     G-391-12-001-Q    02/17/12
                                         and Needs-Based Scholarship Project Managed by the Higher
                                         Education Commission, for the Period July 2, 2004, to
                                         June 30, 2010




                                                                                                   82
 Agency      Report Number   Report Date                            Report Title

                                           Financial Audit of the Merit and Needs-Based Scholarship
USAID       G-391-12-005-R    02/17/12     Project Managed by the Higher Education Commission for the
                                           Period July 2, 2004, to June 30, 2010

USAID       G-391-12-003-P    02/03/12     Audit of USAID’s Pakistan Transition Initiative Program

                                           Financial Audit of Anti-Corruption Program Pakistan and
USAID       G-391-12-004-R    01/13/12     Anti-Fraud Hotline Pakistan Managed by Transparency
                                           International– Pakistan for the Year Ended June 30, 2011

                                           Financial Audit of the Aga Khan University Flood Response
USAID       G-391-12-003-R    01/06/12     Program for the Period August 30, 2010, to December 31,
                                           2010

                                           Pakistan: Assessment of State’s Justification to Support Its
GAO         NA                11/29/11
                                           Certification of Pakistan’s Cooperation (Classified)

                                           Audit of USAID/Pakistan’s Energy Efficiency and Capacity
USAID       G-391-12-002-P    11/23/11
                                           Program

USAID       G-391-12-001-P    11/03/11     Audit of USAID/Pakistan’s Firms Project

                                           Financial Audit of Budgetary Support to the Government of
                                           Pakistan, USAID/Pakistan Program Assistance Agreement No.
USAID       G-391-12-002-R    11/03/11
                                           391-005-ES-07, Managed by the Ministry of Finance, for the
                                           Year Ended June 30, 2008

                                           Financial Audit of Budgetary Support Managed by the Benazir
USAID       G-391-12-001-R    10/26/11     Income Support Program for the Period From September 30,
                                           2009, to March 31, 2011

FY 2011 Reports

                                           Financial Audit of the Business Revitalization Program
USAID       G-391-11-005-R    09/21/11     Managed by Khushhali Bank for the Period February 6, 2010,
                                           to December 31, 2010

                                           Combating Terrorism: Pakistan Counterinsurgency Funds
GAO         GAO-11-860SU      09/20/11     Disbursed, but Human Rights Vetting Process Can Be
                                           Enhanced

                                           Audit of USAID/Pakistan’s Community Rehabilitation
USAID       G-391-11-006-P    08/29/11
                                           Infrastructure Support Program

                                           Pakistan Assistance: Relatively Little of the $3 Billion in
                                           Requested Assistance Is Subject to State’s Certification of
GAO         GAO-11-786R       07/19/11
                                           Pakistan’s Progress on Nonproliferation and
                                           Counterterrorism Issues


                                                                                                          83
 Agency   Report Number    Report Date                           Report Title

DOS       ISP-I-11-47       06/30/11     Inspection of the Bureau of South and Central Asian Affairs


                                         Inspection of the Office of the Special Representative for
DOS       ISP-I-11-48       06/30/11
                                         Afghanistan and Pakistan

                                         Quality Control Review of the Audit Report and Audit
                                         Documentation for the Financial Audit Conducted by A.F.
USAID     G-391-11-003-Q    06/23/11
                                         Ferguson, of the Forman Christian College, for the Period
                                         July 1, 2009 to March 31, 2010

                                         Closeout Financial Audit of the Forman Christian College for
                                         the Development of a 4-Year Bachelor Degree Program and
USAID     G-391-11-004-R    06/23/11
                                         Strengthening Programs in Basic Science and Information
                                         Technology, for the Period July 1, 2009, to March 31, 2010

                                         Audit of USAID/Pakistan’s Road Rehabilitation and
USAID     G-391-11-005-P    06/20/11     Reconstruction Activities Under the Quick Impact Projects in
                                         South Waziristan

                                         Financial Audit of USAID/Pakistan’s Rupee Trust Fund for the
USAID     G-391-11-001-N    05/26/11
                                         Period October 1 2006, to September 30, 2009

                                         Quality Control Review of the Audit Report and Audit
                                         Documentation for the Financial Audit Conducted by Nasir
USAID     G-391-11-002-Q    05/10/11
                                         Javaid Maqsood Imran of the Pakistan Competitiveness
                                         Support Fund for the Period July 1, 2009, to June 30, 2010

                                         Financial Audit of the Pakistan Competitiveness Support Fund
USAID     G-391-11-003-R    05/10/11
                                         for the Period July 1, 2009, to June 30, 2010

                                         Audit of USAID/Pakistan’s Management of Preaward
USAID     G-391-11-004-P    05/06/11
                                         Assessments

                                         Quality Control Review of the Audit Report and Audit
                                         Documentation for Financial Audits Conducted by Khalid
                                         Majid Rahman Sarfraz Rahim Iqbal Rafiq of the Interactive
USAID     G-391-11-001-Q    04/08/11
                                         Teaching and Learning Project Managed by Children’s Global
                                         Network Pakistan Limited, for the Period July 1, 2008, to
                                         February 26, 2010

                                         Closeout Financial Audit of the Interactive Teaching and
                                         Learning Project, and Financial Audit of the Links to Learning
USAID     G-391-11-002-R    04/08/11     Education Support to Pakistan Program Subaward Managed by
                                         Children’s Global Network Pakistan Limited, for the Period
                                         July 1, 2008, to February 26, 2010

                                         Department of State’s Report to Congress and U.S. Oversight
GAO       GAO-11-310R       02/17/11
                                         of Civilian Assistance to Pakistan Can Be Further Enhanced


                                                                                                      84
 Agency      Report Number   Report Date                           Report Title

                                           Accountability for U.S. Equipment Provided to Pakistan
GAO         GAO-11-156R       02/15/11     Security Forces in the Western Frontier Needs to Be
                                           Improved

                                           Audit of USAID/Pakistan’s Flood Relief Efforts as
USAID       G-391-11-003-P    01/24/11
                                           Administered by Local Nongovernmental Organizations

                                           The Bureau of Population, Refugees and Migration’s Internally
DOS         MERO-I-11-01      01/18/11
                                           Displaced Persons Program in Pakistan

                                           Closeout Financial Audit of Khushhali Bank Limited Under the
                                           Developing Non-Bankable Territories for Financial Services
USAID       G-391-11-001-R    12/30/10
                                           Program, for the Period January 1, 2009, to September 30,
                                           2009

                                           Audit of USAID/Pakistan’s Livelihood Development Program
USAID       G-391-11-002-P    12/10/10     for the Upper Region of the Federally Administered Tribal
                                           Areas

                                           Audit of USAID/Pakistan’s Livelihood Development Program
USAID       G-391-11-001-P    12/10/10     for the Lower Region of the Federally Administered Tribal
                                           Areas

                                           Financial Audit of the Costs Incurred by Research Triangle
                                           Institute Under the Education Sector Reform Assistance
USAID       G-391-11-001-D    11/08/10
                                           Program’s School Enhancement Program Component, for the
                                           Period December 4, 2002, to September 30, 2007

FY 2010 Reports

                                           Audit of USAID/Pakistan’s Family Advancement for Life and
USAID       5-391-10-012-P     8/31/10
                                           Health Program

                                           Financial Audit of the Pakistan Competitiveness Support Fund
USAID       G-391-10-001-R    08/04/10
                                           for the Period February 3, 2006, to June 30, 2009

                                           Audit of USAID/Pakistan’s Primary Healthcare Revitalization,
USAID       5-391-10-010-P    06/28/10     Integration and Decentralization in Earthquake-Affected Areas
                                           Project

                                           Review of USAID’s Internally Displaced Persons Programs in
USAID       5-391-10-001-S    06/28/10
                                           Pakistan

DOS         ISP-I-10-64       06/30/10     Inspection of Embassy Islamabad, Pakistan

                                           Financial Audit of USAID Funds Managed by Forman Christian
USAID       5-391-10-033-R    05/18/10
                                           College, Lahore, for the Period July 1, 2007, to June 30, 2009



                                                                                                     85
 Agency   Report Number    Report Date                           Report Title

                                         Financial Audit of USAID Funds Managed by Khushhali Bank
USAID     5-391-10-029-R    04/30/10
                                         for the Year Ended December 31, 2008

                                         Combating Terrorism: Planning and Documentation of U.S.
GAO       GAO-10-289        04/15/10     Development Assistance in Pakistan’s Federally Administered
                                         Tribal Areas Need to Be Improved

                                         Closeout Financial Audit of USAID Funds Managed by
USAID     5-391-10-026-R    03/24/10     Greenstar Social Marketing Pakistan (Guarantee) Limited, for
                                         the Period July 1 to December 31, 2007

                                         The Bureau of International Narcotics and Law Enforcement
DOS       MERO-A-10-03      03/30/10     Affairs Air Wing Program in Afghanistan and Pakistan,
                                         Performance Audit

                                         Closeout Financial Audit of USAID Funds Managed by Aga
USAID     5-391-10-020-R    02/11/10     Khan University—Examination Board, for the Year Ended
                                         December 31, 2007

                                         Audit of USAID/Pakistan’s Capacity Building for the Federally
USAID     5-391-10-005-P    01/28/10
                                         Administered Tribal Areas Development Program

                                         Financial Audit of USAID Funds Managed by Children’s Global
USAID     5-391-10-012-R    12/22/09
                                         Network Pakistan Limited, for the Year Ended June 30, 2008

                                         Status of the Bureau of International Narcotics and Law
DOS       MERO-A-10-02      12/23/09     Enforcement Affairs Counternarcotics Programs in
                                         Afghanistan, Performance Audit

                                         Effectiveness and Efficiency of the Bureau of International
DOS       MERO-A-10-01        11/09      Narcotics and Law Enforcement Affairs Counternarcotics
                                         Programs in Pakistan, Performance Audit




                                                                                                       86
                                                                                    Appendix



Appendix—–Abbreviations
ATA     Antiterrorism Assistance Program

BISP    Benazir Income Support Program

CDC     Centers for Disease Control and Prevention, U.S. Department of Health and
        Human Services

DOC     U.S. Department of Commerce

DOD     U.S. Department of Defense

DOS     U.S. Department of State

DRL     Bureau of Democracy, Human Rights, and Labor, U.S. Department of State

ERMA    Emergency Refugee and Migration Assistance

ESF     Economic Support Fund

EXBS    Export Control and Related Border Security Assistance Program

FATA    Federally Administered Tribal Areas

FFP     Food for Peace

FY      fiscal year

GAO     Government Accountability Office

GHCS    Global Health and Child Survival

GSP     U.S. Generalized System of Preferences

IDP     internally displaced person

IED     improvised explosive device

INCLE   International Narcotics and Law Enforcement


                                                                                          87
                                                                                      Appendix


INL      Bureau of International Narcotics and Law Enforcement Affairs,
         U.S. Department of State

LUMS     Lahore University of Management Sciences

MRA      Migration and Refugee Assistance

NADR     Nonproliferation, Anti-terrorism, Demining, and Related Programs

NADRA    National Database and Registration Authority

NGO      nongovernmental organization

NRSP     National Rural Support Programme

OCHA     UN Office for the Coordination of Humanitarian Affairs

OFDA     U.S. Office of Foreign Disaster Assistance, U.S. Agency for International Development

OIG      Office of Inspector General

PaRRSA   Provincial Reconstruction, Rehabilitation and Settlement Authority

PAS      Public Affairs Section (U.S. Embassy Islamabad)

POL      Political Section (U.S. Embassy Islamabad)

PRM      Bureau of Population, Refugees, and Migration, U.S. Department of State

RAPID    Responding to Pakistan’s Internally Displaced

RSO      Regional Security Office (U.S. Embassy Islamabad)

SABIT    Special American Business Internship Training Program

UN       United Nations

UNHCR    UN High Commissioner for Refugees

UNICEF   UN Children’s Fund

UNODC    UN Office of Drugs and Crime

                                                                                             88
                                                    Appendix


USAID   U.S. Agency for International Development

USDA    U.S. Department of Agriculture

USIP    U.S. Institute of Peace

USTDA   U.S. Trade and Development Agency

WAPDA   Water and Power Development Authority

WFP     World Food Programme




                                                          89
